<html>
<title> - THE BROKEN PIPELINE: LOSING OPPORTUNITIES IN THE LIFE SCIENCES</title>
<body><pre>[Senate Hearing 110-874]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-874
 
     THE BROKEN PIPELINE: LOSING OPPORTUNITIES IN THE LIFE SCIENCES

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING FUNDING OF THE NATIONAL INSTITUTES OF HEALTH, FOCUSING ON 
       OPPORTUNITIES IN THE LIFE SCIENCES AND BIOMEDICAL RESEARCH

                               __________

                             MARCH 11, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
41-349                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

                 Ilyse Schuman, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, MARCH 11, 2008

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland, statement............................................     4
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
  statement......................................................     6
Faust, Drew Gilpin, Ph.D., President, Harvard University, 
  Cambridge, MA..................................................     9
    Prepared statement...........................................    13
Rafael-Fortney, Jill A., Ph.D., Associate Professor, The Ohio 
  State University, Columbus, OH.................................    17
    Prepared statement...........................................    18
Miller, Edward D., M.D., Dean of the Medical Faculty, The Johns 
  Hopkins University School of Medicine, Baltimore, MD...........    21
    Prepared statement...........................................    21
Lewis, Dana, Student and Diabetes Advocate, American Diabetes 
  Association, Huntsville, AL....................................    25
    Prepared statement...........................................    25
Rankin, Samuel M. III, Associate Executive Director, American 
  Mathematical Society, Washington, DC...........................    27
    Prepared statement...........................................    28

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Bingaman.............................................    41
    Senator Clinton..............................................    42

                                 (iii)

  


     THE BROKEN PIPELINE: LOSING OPPORTUNITIES IN THE LIFE SCIENCES

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:02 a.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senator Kennedy, Mikulski, Brown, and Enzi.

                  Opening Statement of Senator Kennedy

    The Chairman. We will come to order. I welcome our 
committee members to today's hearing on the funding of NIH and 
its impact on innovation. I welcome President Faust, Dean 
Miller and other distinguished witnesses and look forward to 
hearing their conclusions and recommendations.
    Imagine holding a hearing on medical research 100 years 
ago. At that time even the idea of vaccines against polio or 
measles or whooping cough would have seemed far fetched. A 
hearing 50 years ago might have spoken of effective treatments 
for cancer as a distant dream, perhaps never to be achieved.
    Twenty years ago the participants at such a hearing might 
have raised the hope of treatments for AIDS, but would have 
cautioned that this hope might not become a reality for 
decades. Even 15 years ago witnesses might have spoken of a far 
off day when the complete sequence of the human genome would be 
decoded. Today breakthroughs that were once distant dreams are 
reality that make a difference in the lives of patients in 
every community in America. They draw their inspiration from 
many sources, but they all have two core elements in common, 
the brilliance of medical researchers and the support of the 
American public.
    What will be discussed at a hearing on medical progress in 
5 or 10 years from today? Will we review a decade of continued 
progress with new breakthroughs in diabetes, spinal injury, 
Alzheimer's disease and other serious afflictions or will we 
look back in regret at a decade of missed opportunities and 
squandered potential?
    The actions that Congress takes in the coming months will 
help to determine which of these two possible futures becomes a 
reality. We cannot close our eyes to the consequences of 
continued failure to capitalize on the progress that we've made 
in medicine in recent years. Thanks to thoughtful research and 
scholarship at a consortium of universities that includes many 
of our Nation's leading centers of innovation, we have before 
us a chilling statement of where our current budget policies 
for NIH will lead.
    The report conclusions are a call to action for Congress 
and the Nation. President Faust of Harvard, one of the authors 
of the report, will present the findings in more detail. Even a 
brief review of some of the major conclusions should shock 
those who hear them.
    Due to inadequate funding the success rate for grant 
applications has dropped 32 percent in 1999 to 24 percent 
today. For young researchers the situation is even more dire. 
Their success rate in applying for first independent research 
grants has dropped from 29 percent in 1999 to 12 percent today. 
That means a young researcher has just one chance in eight of 
getting a grant.
    As a result, the age at which a researcher gets his or her 
first independent research grant has risen from 39 years old in 
1990 to 43 years old today. Many young scientists conclude that 
it's not worth the wait and pursue other career options. Even 
though scientists who do get funded are forced to spend more 
time writing grants and less time doing research at the bench. 
Many turn to industry jobs where they can benefit from funding 
security despite losing the freedom to pursue academic 
research.
    I recommend that every committee member look at the 
excellent comments from scientific leaders that are included in 
the report. One to me was particularly striking. It was my 
friend Joseph Boger, the CEO of Vertex Pharmaceuticals in 
Cambridge and President of Vioxx summarized the risk of our 
current course this way.

          ``You can lose a generation of researchers pretty 
        fast, 5 or 10 years. You create such a discouraging 
        atmosphere they just go somewhere else instead of 
        academic research. We don't have to lose 50,000 
        researchers, just 50 really good ones. Once it happens 
        we won't get those people back.''

    If we lose the talents of a generation of young 
researchers, we put in peril, not only medical progress, but 
America's leadership in life sciences too. The culture of 
innovation and discovery does not just happen it must be 
nurtured or it will wither.
    The United States has a long tradition of being a global 
innovative leader, but we can't take our leadership for 
granted. Today it's at risk. Thirty years ago U.S. researchers 
published 90 percent of all scientific literature on 
information technology. Today it's less than half. Unless we 
invest in the life sciences we'll lose our global leadership in 
biotechnology.
    As a nation we must make a choice between continued 
progress or the stifling of innovation.
    I thank President Faust, Dean Miller and all our 
distinguished witnesses for joining us today to give their 
recommendations on this important issue. I look forward to your 
comments and to our discussions. I'll be delighted to hear from 
our friend, Senator Enzi and then Senator Mikulski who's been 
such a leader in terms of NIH. Not just funding but in policies 
and so many different areas. We're delighted to have her.

                   Opening Statement Of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I appreciate you 
holding today's hearing. I want to thank our roundtable 
participants for taking the time to join us. I look forward to 
hearing your views, your insights, your suggestions about our 
life sciences system and what's working well and what needs to 
be improved.
    Your recommendations will greatly assist us in the effort 
to insure that we not only make progress in this field but 
continue to be a world leader in the effort to research and 
find cures for the diseases that continue to inflict so many 
Americans. Throughout the history of our Nation generations of 
American scientists have looked for ways to improve the human 
condition and address the problem of disease and the 
afflictions of old age. As they conducted their research each 
scientist's work was built on the discoveries that preceded it. 
The results they achieved over the years have enabled us to 
live longer, healthier, more productive lives.
    Over the years the progress we've made depended on new 
generations of scientists taking up and carrying on the work of 
those who came before them. The Federal Government played a 
central role in that effort by providing the funds that were 
needed to sustain and support the work they were doing and 
train those who were doing the research. Our investment in life 
science and NIH has been a central part of that effort.
    NIH-funded research has played an integral role in most of 
the discoveries of the past 50 years that have improved human 
health. In the United States alone NIH research has lead to an 
80 percent overall 5-year survival rate for childhood cancers, 
a 70 percent decline in AIDS-related deaths between 1995 and 
2001, a more than 40 percent decline in Sudden Infant Death 
Syndrome rates between 1994 and 2000, 41 and 51 percent 
declines respectively in the death rates from heart disease and 
stroke between 1975 and 2000, the ability to eliminate or 
greatly reduce symptoms in 80 percent of schizophrenia patients 
and to improve the quality of life for more than 19 million 
individuals suffering from depression and a blood supply that's 
the safest in the world.
    In addition to saving lives, our investment in research has 
lead to the creation of a new industry and the jobs that were 
needed to sustain it. Because of the investment in NIH and the 
technology that spun out of it, the United States has been a 
world leader in health care. We have developed a long list of 
vaccines, therapeutic medicines and devices to combat disease. 
To ensure that the NIH continues to be a driver of innovation 
we passed the NIH Reform Act during the last Congress.
    This act provided the Director of NIH with the flexibility 
and the resources needed to address a changing list of 
priorities. I'm pleased that the Director, Dr. Zerhouni has 
used the authority to create new programs, to encourage young 
investigators and to then fund innovative, cross cutting 
research. It's particularly worth noting that he was able to do 
this with an appropriation that did not meet the authorization 
levels that this committee enacted.
    Appropriations that match authorization levels are 
important to allow administrators and the NIH to plan and 
budget. It's also important to remember that our resources are 
finite. Ultimately, the NIH needs to have the flexibility to 
put the resources it's given where they can be used to the best 
advantage, funding scientists and science that are deemed the 
most appropriate to fund. That's our current status, but it may 
not stay that way for much longer.
    The budget and the priorities that we set are continuing to 
be squeezed tighter and tighter by the demands of each years 
mandatory spending. It's a difficult problem with planning and 
a compelling vision for the future; it's one that can be 
overcome. Although this hearing will focus on NIH, it's 
important to remember the fact that the research arm of the 
Federal Government is made up of more than just the NIH.
    The National Science Foundation, the Department of Defense, 
the Department of Energy, the National Aeronautic and Space 
Administration and the USDA are important components of the 
Federal Government's commitment to science and research. Just 
like life sciences, material sciences, mathematics, aerospace 
and electronics are crucial to our future health and well-
being. Further it's clear that advances outside of the health 
sciences drive the advances made in life sciences.
    As we examine this report it's important that we look to 
the experience at NIH and apply these lessons to the National 
Science Foundation. President Bush's announcement that the 
Administration wants to double the National Science Foundation 
should serve as an invitation to learn from the NIH doubling 
experience and the success it's proven to be.
    I want to thank all of you for coming today. I look forward 
to your discussion and the implications on this issue. There 
will be no greater influence on the quality of our future than 
the ability of people to lead happy, healthy and fully 
productive lives.
    I thank you, Mr. Chairman for making this possible. I look 
forward to the comments of the Senator from Maryland who has 
played a great role in all of this.
    The Chairman. Thank you very much, Senator Enzi. Senator 
Mikulski, would you like to say a word?

                     Statement of Senator Mikulski

    Senator Mikulski. Well thank you very much, Mr. Chairman. I 
will be brief. I'm very excited about this hearing today and 
look forward to hearing from our wonderful panel from people 
distinguished in academia medicine and research and heading up 
our great universities and the young people themselves who want 
to have a career in these fields and make this world a better 
place to live in.
    For many years I've been a strong supporter of increasing 
the funding at NIH. I was so proud to be part of a bipartisan 
effort to double the funding of NIH. You know when we work 
together we actually make a difference.
    We have worked in a bipartisan basis to double the funding. 
Yet, when we look at the President's budget this year, he's 
coming in with a request for $29.5 billion. That sounds like a 
lot, but really that's a couple of weeks in Iraq.
    It is flat funded at the 2008 level which means that it's 
actually shrinking because of what it takes to be able to do 
research and the rising cost of even energy and utilities to 
keep the lights on in the lab let alone keeping the lights of 
hope and opportunity on for our young researchers. What's so 
frustrating is that we were on a trajectory to increase NIH, 
but in 2003 it stopped. So now we're just sputtering and 
turning our wheels because once we hit 2003 with the stagnation 
that occurred in these last 5 years, there has not only been 
less money and less opportunity to pursue research grants, but 
there is a lack of predictability. It's a disincentive for 
people to either choose the field or stay in the field.
    Now as a U.S. Senator from Maryland I just have a 
spectacular job. The National Institutes of Health is in my 
State. What a great thing to be able to say because every day I 
know thousands of people are getting up every day to make this 
world and people's lives a better place.
    Not only that, because of the genius of the American system 
working with academic Centers of Excellence in my own State, of 
course, Johns Hopkins University as well as the University of 
Maryland. Again using the best of academic medicine where 
people who have the responsibility for not only research but 
training the next generation of medical and health leaders. At 
the same time actually treating people and taking medicine from 
the bench to the bedside and working on it together.
    We have these fantastic places. Not only that, Mr. 
Chairman, we not only have the greatest civilian places where 
research is done, but in my own State, too we have military 
installations, like Fort Detrick, that has the responsibility 
to protect us against biological and chemical attack. While 
we're looking at protecting the war fighter against malaria. 
Fighting malaria, as Senator Brown has so long advocated, 
around the world--a lot of that research is being done in the 
civilian sphere.
    We really want to listen and we want to learn. we need to 
act. We need to have both the will and the way. We need to have 
a national will, a national commitment and then a national 
wallet.
    We have seen the changes that have been made. I'll just 
speak to one area of women's health. When I came to the U.S. 
Senate, women were not included in the protocols at NIH. That 
famous study, ``take an aspirin a day keep a heart attack 
away'' occurred through 10,000 male residents. While working 
together through this committee, with the leadership of Dr. 
Bernadine Healy and NIH, we changed that. We established the 
Office of Women's Health.
    So what does all that mean? I'll tell you what it means. 
Through the work that was done by this committee--funding what 
it needed to do and NIH being what it is--working both at NIH 
and with academic centers came the famous longitudinal study on 
hormone therapy.
    What came out of that? Be careful. What came out of being 
careful and re-evaluating the use of hormone therapy, breast 
cancer has declined in this country by 15 percent. Wow, what a 
difference.
    Then when we looked at something we finally got around to, 
taking that aspirin a day to see if it would prevent a heart 
attack or what it does in women. What do we now know? Women 
experience cardio symptoms differently. We need different 
focus. We need different tools of identification and we're 
dealing with it and preventing it.
    We could go through all the research. Then there's this 
other issue that we've worked on which is called diversity in 
science. When I came again, everybody said, ``gosh, science is 
all white guys.'' Well, the white guys did a pretty good job, 
but we wanted to open it up to all of America.
    All of America began to dream and they didn't only focus on 
great institutions like Meharry, our premier institution for 
educating African-American doctors. We reached out. We wanted 
to include people. We wanted to do more.
    Now that we've begun to increase our diversity which is 
women coming into research, people of color choosing this field 
that's so wonderful and exciting. We begin to turn off the 
spigot. We're turning off the spigot to our own future.
    This Congress has focused on something called innovation. 
We were even self congratulatory because we passed something 
called the America Competes Act. Pat ourselves on the back. 
Let's move on.
    When we passed this legislation where does it leave us? We 
know that we still are not in a competitive place. A country 
that does not innovate stagnates. If you stagnate, you fall 
behind.
    This is our future. Miss Lewis is our future. We need to 
meet the future because the future is us.
    I believe that in this year's budget, this year's 
appropriation, we have a rendezvous with destiny to get us on 
the right track. To make sure we all understand this, 
colleagues, I'll say this and I'll conclude, whatever we pass 
this year for the NIH appropriations will be the operating 
budget for the first year of the first term of the next 
President. The next President gets sworn in January 2009. We 
pass the appropriations in October 2008. October 2008 to 
October 2009 is the operating budget for the first year of the 
first term of the next President.
    Let's meet our responsibility. Let's meet our rendezvous 
with history. Let's take our lessons learned and let's get with 
it.
    I conclude my statement.
    The Chairman. Good. Thank you so much. Senator Mikulski 
always has a way of getting to the nub of the problem quickly 
and eloquently and passionately. We always welcome her 
comments.
    Senator Brown, I think you would like to be recognized to 
make an introduction.

                       Statement Of Senator Brown

    Senator Brown. Thank you, Mr. Chairman. Senator Enzi and 
Senator Mikulski, thank you. While we don't have NIH in Ohio, 
we have some great research universities like Ohio State and 
I'm so thrilled to represent them.
    I want to start by presenting my former colleague in the 
House and friend, Eric Fingerhut, who's the new Chancellor of 
Education in Ohio and the terrific job he's doing. He's here 
and Eric, welcome.
    I would briefly reiterate what Senator Mikulski said. That 
I was in the House at the time as the Ranking Member of the 
Health subcommittee at the time when we doubled NIH funding 
while having a Democratic President and Republican Congress. 
There was almost, perhaps, unanimity, close to unanimity on 
doubling the research budget of NIH with the understanding that 
scientists were making good decisions as we move forward.
    Understanding then, if my recollection is right, that the 
government was funding something like one in three, one in 
four, applications. That's the number we should aim at again 
where now my understanding is 1 in 9 or 10 applications. 
Understand what that does to young scientists that want to make 
their living. Some of the young, brightest scientists in our 
country and how difficult it is as those grants are more likely 
to go to older scientists who are contributing much. Perhaps 
not in our future as much as the younger scientists, who are 
perhaps less skilled in working out the grant applications, but 
equally skilled and with a future that they have.
    I was just, a moment ago, given this blue wristband--it's 
Autism Awareness week--and was talking about NIH funding for 
them and environmental causes and all the things that we need 
to look at. The work that all of you do as scientists is so 
very, very important to us.
    Dr. Paul DiCorleto, who's head of the Lerner Research 
Institute in the Cleveland Clinic in northern Ohio says that 
Ohio institutions that support biomedical research can't afford 
to make up the shortfall in grant money. We've lost some $88 
million over the past 2 years. This is in one State alone. 
Multiply that throughout the country and you can see the 
direction that we shouldn't be going in that we, unfortunately, 
are going in.
    It's my pleasure to introduce today, Associate Professor to 
the Department of Molecular and Cellular Biochemistry at Ohio 
State, Dr. Rafael-Fortney. We welcome you and thank you for 
your service.
    I would add, Mr. Chairman, I'd like to enter into the 
record an article from today's Columbus Dispatch about her 
visit here. She might not have seen this yet. It will be in the 
record if the Chairman would----
    The Chairman. It will be so included.
    [The information previously referred to follows:]

                [The Columbus Dispatch, March 11, 2008]

                          (By Suzanne Hoholik)

            OSU SCIENTIST TO TESTIFY ABOUT NEED FOR FUNDING
3
    Columbus, Ohio.--An OSU Medical Center researcher has found that a 
protein is either gone or severely reduced in the hearts of patients 
with heart failure.
    Her next step would be to prove that the loss of this protein, 
called claudin 5, causes heart failure, but a decline in Federal grant 
money has slowed progress.
    Jill Rafael-Fortney is an Ohio State University associate professor 
in the Department of Molecular and Cellular Biochemistry. She needs 
four people in her laboratory working on the project. She's down to one 
full-time person and a part-timer.
    She received a $250,000-a-year grant for 5 years from the National 
Institutes of Health but is unsure whether it will be renewed. She 
hopes so, for the fate of some of the 5 million Americans living with 
heart failure.
    That's what Rafael-Fortney plans to tell members of the U.S. Senate 
Committee on Health today when she talks to them about increasing 
funding so research such as hers can continue.
    National Institutes of Health grants have been flat for the past 
several years at about $20 billion each year. They haven't kept up with 
inflation, meaning researchers are doing more with less.
    Besides raising taxes, some researchers see one solution.
    ``Decreasing the war effort, I think, would be No. 1,'' said 
Caroline Whitacre, vice dean for research at Ohio State.
    OSU is among seven academic medical centers--including Harvard, 
Vanderbilt and Duke--sending people to Washington today to talk with 
lawmakers and the news media about researching funding.
    The universities are concerned that if Federal funding stays the 
same, frustrated ``young'' investigators who don't get their first 
Federal grant will leave the field. The average age of a scientist 
getting a first grant from the National Institutes of Health is 43.
    Fewer scientists with creative research ideas could mean the Nation 
will lose out.
    ``The type of medicine that we're going to be receiving in the 
future depends on the research being done now,'' said David Moore, 
senior associate vice president for government relations for the 
Association of American Medical Colleges.
    ``It will take longer for new cures, longer for new diagnostic 
procedures to get to the American public.''
    Despite flat Federal funding, OSU Medical Center has received 
increases in grants--$119 million last year, compared with $79.8 
million in 2003.
    Getting more is important because the grants are a key component to 
Ohio State achieving its goal of being a top 20 academic medical 
center.
    The trip to Washington is about more than OSU or the six other 
medical centers. It's about small universities seeing declines in 
Federal grants and faculty members who get discouraged when grant 
applicants are repeatedly denied.
    ``It's a morale issue at the moment,'' said Sandra Degen, vice 
president for research at the University of Cincinnati.
    ``I haven't seen it yet, but that's the worry--that we might start 
losing very good people.''

    Senator Brown. Thank you.
    The Chairman. Delighted.
    Senator Brown. It gets better press out of the Columbus 
Dispatch than I do, Mr. Chairman.
    [Laughter.]
    I work sometimes.
    The Chairman. I think you do ok.
    [Laughter.]
    We'll hear from Dr. Drew Gilpin Faust, President of Harvard 
University, accomplished historian. Dr. Faust served as the 
first dean of the Radcliffe Institute, was the Annenberg 
Professor of History, Director of Women's Studies program, 
University of Pennsylvania, has served as part of the faculty 
for 25 years. She's been aware of the issues facing young 
scientists and engineers for 25 years, and oversaw the Harvard 
Task Force on Women in Science and Engineering in 2005.
    Dr. Jill Fortney is an Associate Professor at the 
Department of Molecular Cellular Biochemistry at Ohio State, 
University of Medicine. Her laboratory studies muscular and 
heart disease in order to design treatments for muscular 
dystrophy and heart failure. In addition to publishing 40 
research papers she's received support from the NIH, American 
Heart Association, Muscular Dystrophy Association, and was the 
recipient of the Burrough's Wellcome Fund Career Award.
    Senator Mikulski. Mr. Chairman, could I talk about Dr. 
Miller.
    The Chairman. Sure.
    Senator Mikulski. I'm sorry. I didn't mean, if you were 
finished with Dr. Fortney's extensive and stunning 
accomplishments.
    Dr. Miller is the Chief Executive Officer at Johns Hopkins. 
He's the Dean of the School of Medicine and also Vice President 
for the Hopkins University. He himself is a scholar who's 
focused on cardiovascular effects of anesthetic drugs and 
published over 100 scientific papers, abstracts and chapters.
    What I also think is important is, Dr. Miller comes and 
says, ``What does it take to run a great institution?'' and 
also, ``what does it take to train that next generation of 
leaders?'' And how do we? He has seen them from their bright 
and shiny days of when they walk into the Medical School or the 
School of Nursing or the School of Public Health, all eager and 
ready to go. And then as they choose a career in research where 
do they go?
    His practical insights, I think, will be very helpful to 
the committee on both policy and budget. We're happy to have 
him.
    The Chairman. Dr. Miller, we welcome you here as well. I 
have valued our opportunity to spend some time together on 
different occasions and certainly support what Senator Mikulski 
has mentioned.
    Ms. Dana Lewis is a sophomore major in public relations and 
political science, University of Alabama. Since her diagnosis 
of Type I diabetes 5 years ago, she has worked as an advocate 
for others suffering from the disease. In 2005, she was 
appointed the American Diabetes Association National Youth 
Advocate and continues to volunteer locally and abroad and 
empower the young people with diabetes. You are very welcome.
    Dr. Samuel Rankin is the Executive Director of the 
Washington, DC office of the American Mathematical Society. 
Prior to coming to Washington, Dr. Rankin was Professor of 
Mathematics at West Virginia University, Worcester Polytechnic 
Institute, Virginia Tech. Dr. Rankin also serves as Chairman 
for Coalition for National Science Funding and Association 
Advocate for the National Science Foundation. We're glad to 
have him here today.
    Dr. Faust, we welcome you. We congratulate you on all their 
good work on this program. You've had a banner year at Harvard 
and leading the way in terms of opening up new opportunities to 
students who attend our great universities and with limited 
incomes. And you have set really a very important example 
that's being followed by many other colleges and universities. 
Needless to say, author of a very distinguished book which I've 
had the good opportunity to get partially through.
    [Laughter.]
    I look forward to finishing it during this next Senate 
break. It's a very stirring, moving story for those of us who 
are always fascinated by the Civil War and the starkness of 
that conflict and the loss of life in that conflict. You bring 
an insight into that whole subject matter that is unique and 
special and incredibly informative and moving.
    We're here today on another reason to hear from you. We'll 
certainly look forward to your comments.

   STATEMENT OF DREW GILPIN FAUST, Ph.D., PRESIDENT, HARVARD 
                   UNIVERSITY, CAMBRIDGE, MA

    Ms. Faust. Thank you very much, Chairman Kennedy, Ranking 
Member Enzi and members of the committee for this important 
opportunity to come before you to illustrate some troubling 
findings about how Federal funding of the National Institutes 
of Health is affecting both the pace and the direction of 
medical research.
    For decades universities and the Federal Government in 
partnership with States and philanthropists have built and 
sustained a brilliant, powerful and vibrant research and 
educational enterprise that has moved the world improving 
health, growing economies and indeed growing whole industries 
and seeking always the next frontier. This underlying theory of 
the partnership resonates as clearly today as at its inception. 
Investment in basic research at our universities delivers 
transformative research today and simultaneously trains the 
next generation of scientists, engineers and seekers of cures.
    To borrow a term from biology, this pluripotent system 
regenerates our research capacity. Seamlessly assuring that 
tomorrow's leaders will be ready to fill the shoes of those 
giants of yesterday and today.
    We are here today because we know that these powerful 
structures of innovation are also very fragile. I have come to 
speak to you because of what I am hearing from post-doctoral 
fellows and students considering careers in basic research. 
They find themselves confronting new limits, not in ideas, 
energy, intelligence or enthusiasm, but in opportunity.
    First, Senator Kennedy and members of the committee, I want 
to thank you for your thoughtful leadership in higher education 
but specifically today, for your consistent support for the 
National Institutes of Health and for the biomedical enterprise 
in the United States. Your dedication over decades has helped 
build a system that is the envy of the world. A system that 
countries around the world are working hard to replicate.
    As you know the bipartisan doubling of the budget in the 
NIH between 1998 and 2003 had a critical impact on biomedical 
research. This support enabled the research community to 
harness powerful new tools and complete the human genome 
project launching the United States and the world into a 
biological science revolution.
    The critical infusion of funds fertilize whole promising 
new fields like genomics and proteomics. This has unleashed our 
researchers to analyze biological phenomena beyond our reach 
only a decade ago. It has resulted in new therapies that are 
improving patient outcomes, has produced a host of medications 
that are currently in clinical trials and has transformed the 
scientific foundation upon which today's researchers are 
building new approaches to vaccine public health problems.
    At a time when many lament the ability of Congress to 
collaborate on great issues of our day, one need only point to 
the commitment for supporting NIH as a resounding example of 
bipartisan cooperation and accomplishment. However, as the 
committee is well aware, funding since 2003 has been virtually 
flat. Erosion through inflation has been taking a significant 
toll.
    In 2006 your committee completed a comprehensive review of 
NIH when you crafted reauthorization. One of your most 
important recommendations was a call for substantial increases 
above inflation for funding at NIH through 2009. Sadly those 
increases have not been realized.
    To quote a recent commentary in the New England Journal of 
Medicine, ``The Nation's biomedical research enterprise has 
never experienced a recession of this magnitude or duration.'' 
Today a consortium of seven institutions is releasing a new 
report, ``A Broken Pipeline? Flat Funding of the NIH Puts a 
Generation of Science at Risk.'' This report follows a related 
report issued last year just this time entitled, ``Within our 
Grasp--or Slipping Away? Assuring a New Era of Scientific 
Medical Progress.'' Attached to my testimony is a full list of 
the 14 institutions and the 32 researchers who contributed to 
the findings of these two reports as well as the leading 
associations that have supported this work.
    What these reports show is that the 13 percent loss in real 
dollars over the last 5 years is having a cascading impact that 
is slowing progress and threatening future research that could 
lead to cures and even to ways to prevent disease entirely. 
Leading scientists with quality grant proposals are caught in a 
protracted review process that plays out often over years, not 
months. As a result investigators are downsizing labs, slowing 
research and producing more conservative, less ambitious 
proposals, more likely to secure funding.
    Junior faculty who witnessed the struggles of their 
advisors are asking themselves how they can possibly compete 
with their mentors for a piece of the reduced research pie. At 
the same time, they are working to encourage the next 
generation of students who could and should be tomorrow's 
pioneers in science. The result too often is a ladder of 
discouragement that we hope our country recognizes and begins 
to address today.
    Says Anil Potti, a young researcher from Duke University 
who's using genomic strategies to improve the outlook of 
patients with lung cancer, ``I worry most about what this means 
for patient care. It takes a long time, not only to get 
approved, but also to get the funding once you are approved. 
The whole cycle can take 12 to 18 months and that's if you're 
successful on the first or second try. In the meantime I'm 
seeing patients everyday who could benefit from this 
research.''
    When we produced the first publication in 2007 every one of 
the 20 senior researchers interviewed expressed optimism at the 
scientific possibilities created by the powerful Federal 
investment Congress made in NIH at the turn of the century. 
They enthusiastically describe their ongoing work and their 
plans to prevent the ravages of Alzheimer's, to attack cancer, 
to stop the twin epidemics of obesity and diabetes, to repair 
spinal cord injuries or fight emerging infectious diseases. 
Their elation has been dampened by years of tightened budgets 
which they say are eroding their ability to harness and advance 
those potential breakthroughs.
    Perhaps the most alarming message we heard was the growing 
sense among senior researchers that the future may be at risk. 
Because those most affected by the budget crisis are the 
emerging, young investigators. We interviewed 12 brilliant 
junior faculty at seven institutions across the country who 
work in several different fields. While they each remain 
powerfully drawn to the promise of alleviating pain and 
suffering they are confronted with a reality that diminishes 
many of their hopes and dreams.
    Anne Giersch, an assistant professor at Harvard told the 
interviews,

          ``I don't think one researchers funding plight means 
        anything much in the scheme of things, but I think my 
        difficult experience is being played out many times 
        over. I hate to think of all the lost opportunities for 
        scientific progress that are going unfunded and the 
        loss of economic competitiveness that will accrue if 
        these funding trends continue.''

    These young scientists have the best training, were 
mentored by leaders in their scientific fields have been 
recognized for their early work and hold tremendous promise for 
the future of science. If these scholars are struggling it is 
clear that as a nation we must have a problem.
    Consider a few facts. The average age of a first time 
recipient of R01 grant, the premier NIH research grant that 
launches careers is 43 years old, up from 39 in 1990. The 
success rate on an R01 grant application when first submitted 
is only 12 percent today, a severe drop from the 29 percent it 
was in 1999.
    For even top senior scientists success may mean two or 
three submissions of a grant application over an 18-month to 2-
year period. This results in significant time taken from 
science for grant writings and re-writings. Ultimately yields 
grants whose sizes have been substantially reduced from 5 years 
ago.
    Nancy Andrews, the Dean of the Duke University Medical 
School puts it this way. ``What a strange business this is,'' 
she says.

          ``We stay in school forever. We have to battle the 
        system with only a 1 in 8 to 1 in 10 chance of getting 
        funding. We give up making a living until our 40s. We 
        do it because we want to help the world.''

    There is a related issue we all need to be concerned about. 
Through our long-term commitment to funding medical research 
the United States has built a system of scientific innovation 
that simultaneously trains our own best and most talented 
people and attracts the best and the brightest from all around 
the world. We have in-sourced talent, combined it with our own, 
and pushed the boundaries of innovative approaches to fighting 
disease that has served the world.
    Today, China, India, Singapore and others have adopted 
biomedical research and the building of biotechnology clusters 
as national goals. Suddenly those who train in the United 
States have significant options elsewhere.
    Mr. Chairman and members of the committee, we are well 
aware that the scientific justification for financial support 
will always outstrip our ability to fully invest and that your 
very difficult job is to strike the appropriate balance. It's 
also a fact that NIH will spend $30 billion this year in labs 
across the country that will continue to produce startlingly 
new results.
    We thank you for this sincerely. Where will we be in 10 
years if we discourage a generation of trail blazers. We simply 
cannot afford to tread water.
    Last year we reported that our ability to harvest the 
fruits of previous scientific investments was truly slipping 
away. Today we present new evidence in a report with a more 
troubling message. The current system is discouraging our best 
minds from entering or remaining in academic biomedical 
research.
    The message in both these reports should be a wake up call 
to all of us. We agree with Dr. Zerhouni, the Director of NIH 
when he says,

          ``Without effective national policies to recruit 
        young scientists to the field and support their 
        research over the long-term in 10 to 15 years we'll 
        have more scientists older than 65 than those younger 
        than 35. This is not a sustainable trend in biomedical 
        research.''

    Nor, I would add, is it a sustainable trend for these 
gifted young scientists, nor for the tens of thousands of 
Americans whose lives would be improved, prolonged, perhaps 
even saved by their discoveries. Thank you very much.
    [The prepared statement of Dr. Faust follows:]

                Prepared Statement of Drew Gilpin Faust

    Thank you Chairman Kennedy, Ranking Member Enzi and members of the 
committee for this opportunity to come before you to illustrate some 
troubling findings about how stagnant Federal funding of the National 
Institutes of Health is affecting both the pace and direction of 
medical research.
    For decades, universities and the Federal Government, in 
partnership with States and philanthropists, have built and sustained a 
brilliant, powerful and vibrant research and educational enterprise 
that has moved the world: improving health, growing economies--indeed 
growing whole industries--and seeking always the next frontier. The 
underlying theory of this partnership resonates as clearly today as at 
its inception: Investment in basic research at our universities 
delivers the research ``goods'' today and simultaneously trains the 
next generation of scientists, engineers and seekers of cures. To 
borrow a term from biology, this ``pluripotent'' system regenerates our 
research capacity, seamlessly assuring tomorrow's leaders will be ready 
to fill the shoes of the giants of yesterday and today.
    This fierce force of innovation is also a fragile chain. A link in 
the chain is wearing thin and I am compelled to be here today because 
of what I am hearing from post-doctoral fellows and students 
considering a career in basic research. They see a future defined by 
new limits--not in ideas, energy, intelligence or enthusiasm--but in 
opportunity.
    Today, a consortium of seven institutions is releasing a new 
report, ``A Broken Pipeline? Flat Funding of the NIH Puts a Generation 
of Science at Risk.'' This report follows a related report issued last 
March, ``Within our Grasp--or Slipping Away? Assuring a New Era of 
Scientific Medical Progress.'' Attached to my testimony is a full list 
of the 14 institutions and the 32 researchers who contributed to the 
findings of these two reports as well as the leading associations that 
have supported this work.
    First, Senator Kennedy and members of the committee, I want to 
thank you for your thoughtful leadership in all areas related to higher 
education, but specifically today for your consistent and persistent 
support for the National Institutes of Health and the biomedical 
research enterprise in the United States. Your dedication over decades 
has helped build a system that is the envy of the world--a system that 
countries around the world are working hard to replicate.
    As you know, the bi-partisan doubling of the budget of the NIH 
between 1998 and 2003 was a transformative force for biomedical 
research. This support enabled the research community to harness 
powerful new tools and complete the Human Genome Project, placing the 
United States--and the world--at the crossroads of a biological science 
revolution. The critical infusion of funds fertilized whole new 
promising fields like genomics and proteomics. It unleashed our 
researchers to analyze biological phenomena beyond our reach only a 
decade ago. It has resulted in new therapies that are improving patient 
outcomes, produced a host of medications that are currently in clinical 
trials, and transformed the scientific foundation upon which today's 
researchers are building new approaches to vexing public health 
problems. When the public laments the inability of Congress to 
collaborate on great issues of our day, one need only point to the 
commitment for supporting NIH as a resounding example of bipartisan 
cooperation.
    However, as the committee is well aware, funding since 2003 has 
been virtually flat and erosion through inflation has been taking a 
significant toll. In 2006, your committee completed a comprehensive 
review of NIH when you crafted the reauthorization. One of your 
important recommendations was a call for funding increases at NIH for 
2008 and 2009 of 7 and 8 percent respectively. Sadly, those numbers, 
which the reauthorization was built around, have not been realized and 
flat or below inflation increases have persisted.
    Two years ago, concerned that protracted flat funding in biomedical 
research at NIH was damaging our ability as a nation to capture the 
true promise of the doubling, a group of concerned institutions set out 
to closely examine what was happening on campuses and in medical 
centers as a result of this downturn in the funding trajectory. These 
results were captured in the two reports being discussed today.
    What we have found is that the 13-percent loss in real dollars over 
the last 5 years is having a cascading impact that is slowing progress 
and threatening future research that could lead to cures and even ways 
to prevent disease.
    Leading scientists with quality grant proposals are caught in a 
protracted grant review process that plays out often over years, not 
months. As a result, investigators are downsizing labs, slowing 
research and producing more conservative, less ambitious proposals that 
are more likely to secure funding.
    Junior faculty who witness the struggles of their advisors are 
asking themselves how they can possibly compete with their mentors for 
a piece of the reduced research pie. At the same time, they are 
mentoring their own students and working to encourage the next 
generation of scientists who could and should be tomorrow's pioneers. 
The result too often is a ladder of discouragement that we hope our 
country recognizes and begins to address today.
    Says Anil Potti, a young physician researcher from Duke University 
who is using genomic strategies to improve the outlook and treatment of 
patients with lung cancer:

          ``I worry most about what this means for patient care. It 
        takes a long time not only to get approved . . . but also to 
        get the funding once you are approved. The whole cycle can take 
        12-18 months, and that's if you're successful on the first or 
        second try. In the meantime, I'm seeing patients every day who 
        could benefit from this research.''

    When we produced the first publication in 2007, every one of the 20 
senior researchers interviewed expressed optimism at the scientific 
possibilities created by the powerful Federal investment Congress made 
in NIH at the turn of the century. They enthusiastically described 
their ongoing work and their plans to prevent the ravages of 
Alzheimer's, attack cancer, stop the twin epidemics of obesity and 
diabetes, repair spinal cord injuries or fight emerging infectious 
diseases. Their elation has been dampened by years of tightened 
budgets, which they say is eroding their ability to harness and advance 
those potential breakthroughs.
    Perhaps the most alarming and consistent message we heard was the 
growing sense among senior researchers that those most affected by the 
budget crisis are the emerging young investigators. Their careers are 
being stifled. We were told repeatedly that brilliant young 
researchers, whose training coincided in some degree to the excitement 
of the doubling, are stuck behind their mentors in a funding queue that 
is stalling promising careers in academic research and pushing many 
with substantial promise to seek alternative paths.
    Fearful that our Nation's dampened commitment to biomedical 
research was hindering scientists' ability to speed therapies to the 
bedside, our attention was collectively drawn to an even more damaging 
longer term impact--the loss and discouragement of a generation of 
researchers.
    We sought this year to find out more. We interviewed 12 brilliant 
junior faculty at seven institutions across the country, who work in 
several different fields. The findings are more uniform and obvious 
than any experiment any of them are likely to do in their careers. 
While they each remain powerfully drawn to the promise of alleviating 
pain and suffering, they are confronted with a reality that diminishes 
many of their hopes and dreams.
    Michael Rodriguez, a physician-researcher at UCLA says,

          ``24 hours a day, 7 days a week, you're thinking about your 
        grant proposals and wondering how to survive in this world 
        where fewer people are getting funded, and proposals that are 
        funded aren't being fully funded or are being cut.''

    Anne Giersch, an assistant professor at Harvard told the 
interviewers,

          ``I don't think one researcher's funding plight means 
        anything much in the scheme of things, but I think my difficult 
        experience is being played out many times over. I hate to think 
        of all the lost opportunities for scientific progress that are 
        going unfunded, and the loss of economic competitiveness that 
        will accrue if these funding trends continue.''

    These researchers were trained at some of the best institutions in 
the world, mentored by leaders in their scientific fields, have been 
recognized for their early work, and hold tremendous promise for the 
future of science. If these scholars are struggling, it is clear that 
as a nation we most certainly have a problem.
    Consider a few facts:

    <bullet> The average age of a first-time recipient of an R01 
grant--the premier NIH research grant one needs to establish 
credibility--is 43 years old, up from 39 in 1990.
    <bullet> The success rate of an R01 grant application when first 
submitted is only 12 percent today, a severe drop from the 29 percent 
it was in 1999.
    <bullet> For even top senior scientists success may mean two or 
three submissions of a grant application over an 18-month to 2-year 
period resulting in a grant whose size has been substantially cut from 
5 years ago.
    <bullet> The response to rejected grants are downsized labs, lay-
offs of post docs, slipping morale, and more conservative science that 
shies away from the big research questions.
    <bullet> After multiple submissions and a protracted process, only 
about 20 percent of grants will ultimately be funded.
    <bullet> The percent of R01's that will go to first-time 
investigators was 25 percent in 2007, down from 29 percent in 1990.

    Nancy Andrews, Dean of Duke University Medical School, puts it this 
way:

          ``What a strange business this is: We stay in school forever. 
        We have to battle the system with only a 1 in 8 or 1 in 10 
        chance of getting funded. We give up making a living until our 
        forties. We do it because we want to help the world. What kind 
        of crazy person would go for that?''

    There is a related issue we all need to be concerned about. Through 
our long-term commitment to funding medical research, the United States 
has built a system of scientific innovation that simultaneously trains 
our own best and most talented people and attracts the best and 
brightest from around the world. We have ``in-sourced'' talent, 
combined it with our own and pushed the boundaries of innovation for 
our economy and, indeed, the world.
    Today, China, India, Singapore and others have adopted biomedical 
research and the building of biotechnology clusters as national goals. 
Suddenly, those who train in America have significant options 
elsewhere.
    Mr. Chairman and members of the committee, we are well aware that 
the scientific justification for financial support will always outstrip 
our ability to fully invest, and that your difficult job is to strike 
the appropriate balance. It is also a fact that NIH will spend $30 
billion this year in labs across this country that will continue to 
produce startling new results--for which we thank you sincerely.
    We cannot afford to simply tread water. Last March, Dr. Joan S. 
Brugge, Chair of the Department of Cell Biology at Harvard Medical 
School, testified before the Senate Committee on Appropriations where 
she discussed the impact of the aging baby boomer generation and 
warned,

          ``We cannot afford to stand still--the demographics are 
        against us. There is an impending increase in cancer due to the 
        baby boomers aging into their cancer-prone years, which has 
        been referred to as an impending tsunami. You are all keenly 
        aware of the ramifications for government of Medicare 
        entitlements associated with this surge in cancer. Unlike a 
        real tsunami, which comes unexpectedly with no time for 
        preparation, we are well aware of this impending crisis. We 
        know that the congressional investment in basic and cancer-
        focused research has positioned the cancer research community 
        to make more rapid progress in translating basic discoveries 
        into diagnosis, treatment, and eventually, prevention of 
        cancer.''

    Past investment has positioned us to make key advances on the broad 
range of disease and we cannot afford to retreat.
    However, the New England Journal of Medicine recently featured a 
commentary proclaiming that, ``the Nation's biomedical research 
enterprise has never experienced a recession of this magnitude or 
duration.''
    Last year, we reported that our ability to harvest the fruits of 
previous scientific investments is truly slipping away.
    Today we present new evidence in a report with a more troubling 
message, delivered by 12 of the Nation's most promising junior 
researchers. They are telling us that the current system is 
discouraging them and their peers from entering or remaining in 
academic biomedical research. We may be creating a climate where our 
position as the primary destination for the best and brightest 
researchers from around the world may be challenged.
    The messages in both of these reports should be a wake up call to 
all of us. We agree with Dr. Elias Zerhouni, Director of NIH, when he 
says:

          ``Without effective national policies to recruit young 
        scientists to the field, and support their research over the 
        long term, in 10 to 15 years, we'll have more scientists older 
        than 65 than those younger than 35. This is not a sustainable 
        trend in biomedical research and must be addressed 
        aggressively.''

    Thank you Chairman Kennedy and Senator Enzi for this opportunity to 
provide this testimony on behalf of the consortium of concerned 
institutions that sponsored these reports. I look forward to your 
questions.

         ATTACHMENT--CONTRIBUTING INSTITUTIONS AND RESEARCHERS
                              INSTITUTIONS

Report--``Broken Pipeline? Flat Funding of the NIH Puts a Generation of 
                    Science at Risk''

Brown University
Duke Medicine
Harvard University
The Ohio State University Medical Center
PARTNERSTM Healthcare
UCLA
Vanderbilt University

Report--``Within Our Grasp--or Slipping Away? Assuring a New Era of 
                    Scientific Medical Progress''

The University of California
Columbia University in the City of New York
Harvard University
Johns Hopkins Medicine Johns Hopkins University
PARTNERSTM Healthcare
The University of Texas at Austin
Washington University in St. Louis
The University of Wisconsin Madison
Yale University

                              RESEARCHERS

Report--``Broken Pipeline? Flat Funding of the NIH Puts a Generation of 
                    Science at Risk''

Nancy Andrews, M.D., Ph.D., Dean, Duke University Medical School
Carthene Bazemore-Walker, Ph.D., Assistant Professor, Department of 
    Chemistry, Brown University
Joshua Boger, Ph.D., Founder and CEO, Vertex Pharmaceuticals, and 
    Chair, 
    Biotechnology Industry Organization
Isla Garraway, M.D., Ph.D., Assistant Professor, Department of Urology, 
    University of California Los Angeles
Rachelle Gaudet, Ph.D., Associate Professor of Molecular and Cellular 
    Biology, Harvard University
Anne Giersch, Ph.D., Assistant Professor, Harvard Medical School and 
    Brigham & Women's Hospital
Denis Guttridge, Ph.D., Associate Professor, Department of Molecular 
    Virology, Immunology, and Medical Genetics, The Ohio State 
    University
William Lawson, M.D., Assistant Professor, Division of Allergy, 
    Pulmonary, and Critical Care Medicine, Vanderbilt University
Susan Lindquist, Ph.D., Member and Former Director of the Whitehead 
    Institute, and HHMI Investigator and Professor of Biology, 
    Massachusetts Institute of Technology
L. Kristin Newby, M.D., M.H.S., Associate Professor of Medicine, Duke 
    University
Anil Potti, M.D., Assistant Professor of Medicine, Duke University
Jill Rafael-Fortney, Ph.D., Associate Professor, Department of 
    Molecular and Cellular Biochemistry, The Ohio State University
Michael Rodriguez, M.D., M.P.H., Associate Professor, Department of 
    Family Medicine, University of California Los Angeles
Larry Schlesinger, M.D., Professor of Medicine, Molecular Virology, 
    Immunology, Medical Genetics, and Microbiology, The Ohio State 
    University
Tricia Serio, Ph.D., Assistant Professor, Department of Molecular, 
    Cellular Biology, and Biochemistry, Brown University
Pampee Young, M.D., Ph.D., Assistant Professor, Department of 
    Pathology, Vanderbilt University

 Report--``Within Our Grasp--or Slipping Away? Assuring a New Era of 
                    Scientific Medical Progress''

Joan S. Brugge, Ph.D., Chair of the Department of Cell Biology, Harvard 
    Medical School
Jon Clardy, Ph.D., Professor in the Department of Biological Chemistry 
    and Molecular Pharmacology, Harvard Medical School
Richard Davidson, Ph.D., Vilas Professor of Psychology and Psychiatry, 
    University of Wisconsin-Madison
Jorge Galan, D.V.M., Ph.D., Professor of Microbial Pathogenesis and 
    Cell Biology and Chair of the Section of Microbial Pathogenesis, 
    Yale University School of Medicine
Carol W. Greider, Ph.D., Director of Molecular Biology and Genetics at 
    the Institute of Basic Biomedical Sciences of The Johns Hopkins 
    University School of Medicine Baltimore, MD; Co-winner of the 2006 
    Albert Lasker Award for Basic Medical Research
Brent Iverson, Ph.D., University Distinguished Teaching Professor of 
    Organic Chemistry and Biochemistry, The University of Texas at 
    Austin
Thomas M. Jessell, Ph.D., Investigator, Howard Hughes Medical Institute 
    (HHMI); Professor, Department of Biochemistry and Molecular 
    Biophysics, Columbia University
Eric Kandel, M.D., University Professor, Columbia University; 
    Investigator, HHMI; Nobel Laureate, Physiology or Medicine (2000)
M. Daniel Lane, Ph.D., Professor of Biological Chemistry in the 
    Institute for Basic Biomedical Sciences of The Johns Hopkins 
    University School of Medicine, Baltimore, MD
Ira Mellman, Ph.D., Sterling Professor of Cell Biology and Immunology 
    and Chair of the Department of Cell Biology at Yale University 
    School of Medicine, New Haven, CT
Vamsi K. Mootha, M.D., Assistant Professor of Medicine at Massachusetts 
    General Hospital and Assistant Professor of Systems Biology at 
    Harvard Medical School; Recipient of a 2004 MacArthur Foundation 
    Award
Nicholas A. Peppas, Sc.D., Fletcher S. Pratt Chair and Director of 
    Center on Biomaterials, Drug Delivery, Bionanotechnology and 
    Molecular Recognition, The University of Texas at Austin; Member of 
    the National Academy of Engineering
Lee Riley, M.D., Professor of Infectious Diseases and Epidemiology at 
    University of California, Berkeley
Robert Siliciano, M.D., Ph.D., Professor of Medicine and Investigator, 
    HHMI, at The Johns Hopkins University School of Medicine, 
    Baltimore, MD
Samuel L. Stanley, Jr., M.D., Director, Midwest Regional Center of 
    Excellence in Biodefense and Emerging Infectious Diseases Research; 
    Vice Chancellor for Research, Washington University in St. Louis
Stephen Strittmatter, M.D., Ph.D., Professor of Neurology and 
    Neurobiology, Yale University School of Medicine
Leon J. Thal, M.D., Professor and Chair of the Department of 
    Neurosciences at the University of California, San Diego; Winner of 
    the Potamkin Prize for research in Alzheimer's disease in 2004
Amparo C. Villablanca, M.D., Professor of Internal Medicine and 
    Cardiovascular Medicine and Director of the Women's Cardiovascular 
    Medicine Program at the University of California, Davis, School of 
    Medicine
Richard K. Wilson, Ph.D., Professor of Genetics and Microbiology and 
    Director of the Genome Sequencing Center, Washington University in 
    St. Louis
Jerry Chi-Ping Yin, Ph.D., Professor of Genetics and Psychiatry, 
    University of Wisconsin-Madison

    The Chairman. Thank you very much. Very compelling 
testimony.
    Dr. Rafael-Fortney. Thank you.

     STATEMENT OF JILL A. RAFAEL-FORTNEY, PH.D., ASSOCIATE 
       PROFESSOR, THE OHIO STATE UNIVERSITY, COLUMBUS, OH

    Ms. Rafael-Fortney. Good morning and thank you, Chairman 
Kennedy, Ranking Member Enzi, who's not here at the moment, and 
Members of the HELP committee. My name is Jill Rafael-Fortney. 
I'm an Associate Professor in the College of Medicine at Ohio 
State University.
    My laboratory conducts biomedical research with the goal of 
transforming health care for patients with muscular dystrophy 
and for those with heart failure. We have a potential new 
target for the treatment of heart failure. This exciting 
research is sitting in the freezer because our grant did not 
get funded as a direct result of the flattened NIH budget.
    My story is one of countless others. I am here to represent 
the best and the brightest young scientists and implore this 
committee to consider the effects of an NIH budget that does 
not keep up with inflation. The current NIH budget has led to a 
funding crisis where the most innovative ideas that are most 
likely to lead to the biggest breakthroughs are not being 
funded.
    This situation is beginning to drive even the most 
talented, the most well-trained and the most passionate 
scientists out of biomedical research and young physician 
scientists into private practice. Behind us we're losing the 
generation of students that we're training.
    At a time when we're poised to make the most momentous 
discoveries in biomedical research, losing these generations of 
scientists and their science will be devastating and this 
situation will have catastrophic effects on the future of 
health care in our great country. Thank you very much.
    [The prepared statement of Dr. Rafael-Fortney follows:]

          Prepared Statement of Jill A. Rafael-Fortney, Ph.D.

    I would like to sincerely thank Chairman Kennedy and Ranking Member 
Enzi for holding this hearing on the very important topic of the 
serious threat to scientific discovery in our country.
    When I was 6 years old, I started watching the Jerry Lewis telethon 
for Muscular Dystrophy every Labor Day weekend. I found it horribly sad 
that children just like me were living their lives in wheelchairs and 
facing a certain death before I would graduate from college. I did what 
I could at the time; I saved up my allowance and donated it to the 
telethon every year and vowed that I would spend my adult life trying 
to help these children.
    In 7th grade science class I first learned about genetics, and I 
realized that this was the road to fight neuromuscular diseases. I 
looked for Universities where I could gain hands-on skills in genetic 
research. For 3 years as an undergraduate student at Cornell University 
and during the summers I conducted a research project in a genetics lab 
and completed an Honor's thesis. I also spent a summer in a clinical 
genetics setting where I was able to make an informed decision to not 
seek a medical degree, so that I could spend more of my young life 
doing research and more time trying to find cures instead of telling 
patients that I couldn't help them.
    After graduating in the top 10 percent of my class from Cornell, I 
went to the most competitive Human Genetics Ph.D. program in the 
country at University of Michigan. I trained with the leaders in the 
muscular dystrophy field; Jeff Chamberlain as a Ph.D. student, and Kay 
Davies as a post-doctoral fellow at the University of Oxford in 
England. Professor Davies has been honored by the Queen of England for 
her contribution to biomedical research in the UK and is now a Dame. As 
a graduate student and post-doc, I published over 20 peer-reviewed 
papers on muscular dystrophy, including some in the very best journals 
such as Cell and Nature Genetics.
    I accepted a tenure-track faculty position at The Ohio State 
University because of the clinical strength in neuromuscular and 
cardiac diseases. I did so with the vision of carrying out breakthrough 
basic and translational research focused on the skeletal muscle and 
heart pathologies of muscular dystrophy. Rather than merely continuing 
some aspect of the work ongoing in the labs of my mentors, I took the 
difficult path of initiating research projects in my own lab to address 
two different important scientific questions that weren't being 
addressed elsewhere. The first project focused on heart disease in 
Duchenne muscular dystrophy. The second focused on identifying novel 
mechanisms at the neuromuscular junction.
    The neuromuscular junction is the site where the nervous system 
controls muscles and the root of the problem in neuromuscular diseases. 
My lab identified receptors that had never before been documented at 
this site. This discovery highlights how new knowledge will never be 
learned if you're only looking for what you already know is there.
    Patients with Duchenne and other muscular dystrophies also have 
heart failure in addition to debilitating skeletal muscle problems. 
Therefore, we also focused on defining the mechanisms of this heart 
disease with the long-term goal of identifying novel targets for 
treatment. We found a gene that is specifically downregulated in 
muscular dystrophy cardiomyopathy that progresses to heart failure. We 
confirmed that the protein is lacking only in heart cells of this heart 
failure model. In collaboration with an OSU cardiologist, we next 
looked to see if this protein was missing in patients with heart 
failure. Surprisingly, we found that at least 60 percent of heart 
samples collected from patients who had heart transplants showed an 
absence or major reduction in the levels of this protein. What is so 
significant about this number is that it represents 60 percent of 
people who develop heart failure as a result of a wide variety of 
primary causes, not just muscular dystrophy. It could be a common 
pathway to heart failure for at least 60 percent of the 5 million 
people who are living with heart failure in the United States today and 
the 500,000 additional cases diagnosed every year. I want to emphasize 
that these are not people who suffer heart attacks and either quickly 
recover or die from them. Rather, people with heart failure are 
hospitalized for long periods of time, are on life support, and are on 
the waiting list for heart transplants. One can just begin to imagine 
the economic and quality-of-life benefits that would result from a way 
to prevent heart failure from this or similar research. To pursue this 
line of research, we submitted an R01 application to the NIH proposing 
the next set of definitive experiments. The application proposed to 
determine the ability of this protein to cause and prevent heart 
failure in mouse models and to test specific hypotheses in patient 
samples of how this protein is lost. It represents a collaboration 
between me (a molecular geneticist), a cardiac physiologist (Paul 
Janssen), and a cardiologist (Phil Binkley). That application received 
a score that would have been funded a few years ago, but missed the 
funding line in the current environment. This example is just one of 
hundreds of exciting, potentially groundbreaking biomedical science 
projects that are not being funded today.
    While we can't predict exactly how these research projects will 
benefit patients or impact the economics of the U.S. healthcare system, 
biomedical research is on the cusp of a breakthrough. It has been said 
that the 20th century was the Century of Physics with incomprehensible 
advances in flight, communication and silicon technology. The 21st 
century is the Century of Biology. The Director of the Research 
Institute at Nationwide Children's Hospital, Dr. John Barnard, gave a 
perfect example in a speech I heard a few days ago. At the beginning of 
the Century of Physics the Wright Brothers probably couldn't envision 
that their invention would evolve into the global companies of Boeing 
or Netjets or that John Glenn would travel into Space, but they knew 
they were on to something big. At the present, while we can't predict 
where we'll be at the end of the century, or even in 10 years, we know 
we are on to something big. We have advanced to the point of having all 
of the right tools and all of the background knowledge. We, as 
scientists, know that we are on the verge of major breakthroughs in 
Biology and Medicine.
    What's the problem with the flat NIH budget? Well, it comes down to 
the same economic issue as everything else. A flat budget equates to a 
loss of buying power. It is certainly not going to flamboyant salaries, 
although I'm happy to report that we do provide healthcare for our 
trainees and employees. In addition to this obvious economic issue, 
funding of individual investigator-initiated innovative science via 
hypothesis-driven R01 grants has been impacted to an even greater 
extent. The public push to translate everything in the research 
pipeline into clinical applications has led to the creation of 
milestone driven research. While milestone-driven translational 
research is important and certainly should be funded by the NIH, 
research designed to meet milestones results in discarding any novel 
observations made along the way. This type of research design will push 
anything with clinical potential out of the pipeline. The question is: 
what will fill the pipeline?
    The individual initiated R01 is the grant mechanism that feeds the 
pipeline. The payline for R01's is currently around the 10th 
percentile. From my perspective also as a grant reviewer, you have to 
bet on 1 grant out of a pile of 10. When you can select only 1 grant, 
it is against human nature to not select the grant from the established 
lab with the long track record, where many of the proposed experiments 
are already complete. As one colleague said, ``it has the horrible 
consequence of pushing research agendas to the `tried and true' variety 
rather than the risky, innovative, and high pay-off, even for senior 
investigators.'' That effect is even more dramatic for junior 
investigators who have not built powerhouse labs, but have the really 
innovative ideas that are not getting funded. These junior 
investigators are spending inordinate amounts of time writing and re-
writing their proposals instead of actually conducting innovative 
research. The low NIH budget is driving young scientists into teaching 
careers, industry, publishing, or sending them to law school. We're 
losing a generation of scientists.
    They're people like me. People who graduated at the top of their 
classes from Ivy League Universities; people who were trained by the 
best scientists in the world; people who have had a passion for what 
they do their whole lives. I'm not talking about people who were never 
successful. I'm talking about people who have multiple first author 
papers in the best scientific journals: Cell, Nature, Science. They're 
people who may have had their first R01 successfully funded, but can't 
get a renewal funded; and will lose all of the trained personnel in 
their labs while they're trying. We're losing them. The United States, 
which has been a world leader in scientific discovery is falling 
behind.
    We're losing physician scientists who have had enough passion for 
finding new ways to treat human disease to obtain both M.D. and Ph.D. 
degrees or who do a research fellowship. My clinician scientist 
colleagues are going into private practice when they can't get their 
R01's funded. They're making this decision not based on personal 
financial reward, but based on the funding situation that prohibits 
their progress towards what they passionately believe will aid 
humankind.
    Behind us, we're losing the students and postdocs that we're 
training, because they don't want to go through the rejection and 
adversity that they're seeing us go through. We're really losing two or 
more generations of scientists.
    As we allow inflation to erode NIH funding, it declares to the 
international community that the United States does not believe that 
science will play a role in the development of its society. It is 
short-sighted.
    To me, the biggest disappointment is that we've come to a point 
where science and medicine have so much overlapping technology and 
there is so much common knowledge between the bench and the bedside, 
that scientists and physicians are really poised to work together to do 
momentous things. The effects of losing our generation will be 
devastating.
    What will I do if my R01 doesn't get funded? I'll still be a co-
investigator on a milestone-driven multi-investigator translational 
project that will support a part-time person in my lab. I'm part of 
another large translational application that will be reviewed soon. If 
that gets funded, my salary won't get cut and it will keep my lab 
slowly moving along, but only to refine what we already know, not on 
any of our promising new discoveries. While working in large groups of 
clinicians and scientists on these large translational projects are 
also exciting and have immediate potential impact on patients, they're 
not enough for me. They let me use my organizational and technical 
skills, but not my passion that leads me to innovate and envision the 
potential to make the completely novel breakthroughs. I feel fairly 
confident that I could get funded to do research on some minutia of the 
known, but that's not a good enough reason to spend that much time away 
from my wonderful 5-year-old son and 2-year-old daughter.
    I am confident that the innovative research from my laboratory will 
lead to dramatic improvements in the quality of life for patients with 
muscular dystrophy and heart failure while at the same time 
dramatically decreasing healthcare costs. There are countless other 
cases like mine. If NIH funding was in the same relative state a decade 
ago, children with leukemia would still be dying, instead of going on 
to live normal lives. We would not have the imaging capabilities to 
detect and prevent many cases of breast and prostate cancer and the 
treatments that extend survival and improve quality of life. In the 
next decade we are likely to have treatments for diabetes, Alzheimer's 
disease and heart disease, but not if the NIH funding crisis continues. 
As a country, we should be thinking not of how we are going to solve 
this crisis for the coming year, but we should be developing a 50-year 
plan to maintain the expertise of scientists and remain at the 
forefront of scientific discovery and applications to healthcare. We 
need to invest in the next generations of scientists and we need to do 
it now.

    The Chairman. Thank you. Thank you very much.
    Dr. Miller.

   STATEMENT OF EDWARD D. MILLER, M.D., DEAN OF THE MEDICAL 
   FACULTY, THE JOHNS HOPKINS UNIVERSITY SCHOOL OF MEDICINE, 
                         BALTIMORE, MD

    Dr. Miller. Senator Kennedy, Senator Mikulski, Senator 
Brown, thank you very much. I'm Ed Miller. I'm the Dean and CEO 
of Johns Hopkins Medicine and I've done it for 12 years now.
    I think I have a pretty good insight into some of the 
issues. You may wonder why we're here today even though the 
doubling of the NIH ended in 2003. I think you're really now 
seeing the very depths of what that flat funding has meant--
actually a decrease in funding.
    I want to thank you for your sustained support over the 
years, especially Senator Kennedy and Mikulski that have really 
allowed us to do what we needed to do. What we need at NIH is 
actually sustained funding now that is better than the rate of 
inflation so that young investigators and also older 
investigators will be able to be funded.
    One of the things that I'm noticing now is that our older 
investigators are having difficult times. They are the mentors 
for the younger investigators. If they need to spend more and 
more time writing grants so that they can have their funding in 
tact, it's less time for the young investigators to be mentored 
by them.
    One of the issues that I think is very important is that we 
have a sustained level of funding over a period of years, 10 or 
15 years that will allow us to go forward. I also think that 
your support of the reauthorization of NIH was extremely 
important. It has allowed the Director to be able to be more 
flexible in the use of the funds and to address issues that 
affect the country in a more rapid way then they have in the 
past. I think you can see that we have been able to meet that 
challenge.
    And last, I think it's very important to not forget the 
past. As you pointed out in your opening comments, incredible 
progress has been made in the care of the Nation because of the 
funding of NIH. I think we do not want a generation of 
researchers to be lost and therefore lose our chances to 
improve the health of this country.
    Again, I think it's very important we have sustained 
funding of NIH that goes over periods of time that will support 
both the young investigator, but also the older investigators. 
Thank you, Senator Kennedy.
    [The prepared statement of Dr. Miller follows:]

              Prepared Statement of Edward D. Miller, M.D.

                              INTRODUCTION

    Mr. Chairman and members of the committee, thank you so much for 
inviting me to testify today at this very important hearing. I am Ed 
Miller, Dean of the Medical Faculty and CEO of Johns Hopkins Medicine. 
Johns Hopkins Medicine is the organization that represents the Johns 
Hopkins University School of Medicine and Johns Hopkins Health System.
    I am pleased to be here to give you my perspective on the findings 
of the report: ``A Broken Pipeline? Flat Funding of the NIH Puts a 
Generation of Science at Risk.'' The report highlights, in a very 
personal way, the impact of the current funding environment on the 
careers of some of our country's most promising young scientists. As 
the person charged with the privilege and responsibility for the 
operation of one of the many institutions across this country whose 
mission is to train future physicians and researchers, as well as 
provide patient care, I can tell you that my counterparts at other 
universities and I struggle everyday to help all our investigators 
navigate the current funding climate.
    I believe we may lose a generation of enthusiastic, inquisitive 
scientists if they conclude NIH grants are out of reach. The statistics 
are very discouraging. Today only one out of every four grants is ever 
funded--8 years ago it was one in three. Only 12 percent are funded 
after the first submission. For first-time applicants these odds seem 
insurmountable and they are discouraged. They spend many weeks and 
countless hours preparing their proposals only to be told their score 
was not high enough and they should rewrite and resubmit. Or worse yet, 
they are not scored at all. No wonder they are discouraged. I also 
believe that in the quest to obtain funding, all of our scientists, 
both young and more senior, are becoming risk-averse, and curtailing 
their proposals and the most cutting edge science may remain undone 
because in an environment of scarce resources only the safe-bets are 
funded.
    First, I commend you and your colleagues in Congress for their 
historical commitment to biomedical research and National Institutes of 
Health (NIH) and the support this provides to our Nation's research 
universities. What many Americans may not realize is that 85 percent of 
the funding that Congress provides to NIH actually comes back to their 
local communities. Many of the startling advances in identifying early 
indicators and causes of diseases are the result of those well-spent 
Federal research dollars. I am convinced we are on the cusp of a 
dramatic transformation in health science discovery and cures. 
Unfortunately, since 2004 the levels of funding for the NIH have not 
kept pace with inflation and NIH has lost upwards of 13 percent of its 
purchasing power. Not only have we lost ground to inflation, but at 
Johns Hopkins we have seen an actual decrease in our total awards from 
our peak level in fiscal year 2005. This is having an impact across our 
entire institution but has had a particularly insidious effect upon our 
young investigators.
    Going forward, NIH needs at a minimum, funding increases at least 
equal to the biomedical research inflation index (BRDPI). Anything 
less, is a real cut to science, threatens the careers of our young 
faculty and will weaken the Nation's role as a worldwide leader in the 
biomedical field. The current projection for BRDPI for fiscal year 2008 
through 2013 is 3.5 percent. But if past is prologue (in fiscal year 
2007 it was 3.9 percent and fiscal year 2006 was 4.6 percent) one might 
expect actual BRDPI levels to exceed current projections. The 
biomedical research community is seeking an increase of $1.9 billion 
which represents BRDPI plus 3 percent. This infusion of $1.9 billion 
will allow research labs to keep pace with rising costs and provide 
resources for new and innovative projects.
    We, in academia, are cognizant of the overall fiscal situation that 
Members of Congress and this and future Administrations face. We are 
also aware that there are many compelling demands upon the 
discretionary funds available to appropriators. Nonetheless as a 
community, we feel it is critical that we come before you to reiterate 
how important it is to support biomedical research not only for 
ourselves but future generations. The plight of our young investigators 
exemplifies perfectly both the current and future risk of allowing our 
international leadership in this area to erode.

              FUNDING CLIMATE HINDERS HIGH IMPACT RESEARCH

    I hear from my faculty that NIH study sections, with the limited 
funding available to them, tend to favor safer bets. Study sections 
look for increasingly more preliminary data in grant applications. In 
essence they are seeking so much preliminary experimental information 
that many applicants say most of the proposed project would have to be 
already done before they get funding. They are funding incremental 
steps, not bold initiatives. This modus operandi clearly discourages 
creativity and cutting edge ideas.
    I also hear that because the chance of being funded is much lower, 
all investigators--especially the younger ones--are spending more of 
their time in grant writing instead of doing the creative research. I 
fear that their goal then is not to do creative research but to survive 
by going for more sure bet type of research for the sake of securing 
continuous funding.
    We also hear that many highly accomplished investigators are also 
suffering with limited funding. The upshot is that the government has 
invested tremendously in the past into our intellectual capital, and 
now we may not reap the benefits.
    Let me share an example that clearly demonstrates the tremendous 
value of supporting our young investigators and the nature of cutting 
edge research. In September 2006, Carol Greider, Ph.D. (Professor and 
Director of Department of Molecular Biology and Genetics, Johns Hopkins 
University School of Medicine), Elizabeth Blackburn, Ph.D. (Professor 
of Biology and Physiology in the Department of Biochemistry and 
Biophysics, University of California, San Francisco) and Jack Szostak 
Ph.D. (Professor Department of Genetics, Harvard Medical School), 
Harvard were awarded the most prestigious prize in American medicine--
the Lasker Award. They shared the award for their work in telomerase: 
an enzyme that helps maintain the ends of chromosomes. The award is 
based on findings the three made with respect to cell function and 
genetics, 22 years ago, and is considered today to be one of the most 
advanced areas of biomedical research. At the time Dr. Greider was in 
her early 20's. Her more senior colleagues Szostak and Blackburn were 
in their early and mid-30's respectively. These three were well below 
today's average age of 43 for obtaining the coveted first R01 grant. 
Subsequent research has revealed that telomerase is elevated in more 
than 85 percent of all human cancers. It enables cancerous cells to 
divide indefinitely, making them virtually immortal. Several biotech 
companies are now devising anti-cancer drugs to block telomerase. If 
Doctors Greider, Blackburn and Szostak were seeking funding for this 
same body of work today, would current success rates provide them 
funding?
    I can not help but worry that groundbreaking work such as this is 
being delayed or left completely undone today. A case in point is that 
of Joel L. Pomerantz, Ph.D. an Assistant Professor in the Department of 
Biological Chemistry and the Institute for Cell Engineering at Johns 
Hopkins University School of Medicine. He wants to use new technologies 
that are the keys to ground-breaking biomedical discoveries. These new 
technologies or high-throughput methods provide an opportunity to 
examine entire biological systems, which are large networks of 
interacting molecules. The high-throughput technologies have provided 
young investigators new ``microscopes,'' with which to observe 
thousands of genes in complex biological systems and generate new 
hypotheses, producing ground-breaking ideas.
    His laboratory has developed ways for using such methodology to 
screen for genes involved in the normal immune response (lymphocyte 
activation), and also for genes that function in signaling pathways 
that are dysregulated in different forms of human cancer and in 
autoimmune disease. Thus, his screens promise to yield genes that could 
advance our knowledge of basic immunology and cell biology but might 
also emerge as targets for the development of novel therapies for 
cancer, autoimmunity and other diseases of aberrant cell growth and 
function. It is important to note that it has only recently been 
possible to do such research. This has been made possible by: the 
sequencing of human, mouse and other genomes, and the emergence of RNAi 
technology and the ability to generate genome-wide RNAi libraries that 
can interrogate the function of most, if not all, known or predicted 
human or mouse genes.
    We now find that study sections are slow to embrace this more 
novel, creative and unbiased global approach, preferring the 
traditional hypotheses that link one event to another in a linear way; 
yielding a potential biased view of a complex system. Dr. Pomerantz and 
others tell us, given that these technologies cannot guarantee a 
specific outcome, their use to screen for genes involved in specific 
pathways or disease status in an unbiased way has been met with 
resistance. As such, the more traditional, simple hypotheses are 
proposed rather than the more creative, unbiased way to discover 
critical biological and disease pathways. This situation is 
particularly heightened because of the limited NIH funding--leading to 
a regression rather than progression in the way we do science.
    Fortunately for Dr. Pomerantz and the members of his lab, Johns 
Hopkins has been able to provide some institutional support and private 
foundations have funded his research on a small scale, and they have 
already made interesting insights in only a few years. But the 
conventional wisdom is that the NIH will not support such ventures in 
an R01 application, unless the applicant is already well-established, 
well-funded, and one of the very, very few lucky recipients of a 
Pioneer or Innovator award.
    Dr. Pomerantz is 40 years old, has tremendous credentials (degrees 
from Brandeis and the Massachusetts Institute of Technology and has 
trained with two Nobel Prize winners: Philip Sharp and David 
Baltimore), and a very promising career before him. He recently 
submitted an R01 application which was scored on the first round, but 
failed to meet the 12 percent payline. He now has 2 more chances to re-
submit. Without NIH funding, the fate of Dr. Pomerantz's proposal is 
uncertain.
    Let me share the story of one more of our faculty whose experiences 
also parallel with what you see in the ``Broken Pipeline'' report 
released today: Ben Ho Park M.D., Ph.D. Dr. Park is an Assistant 
Professor of Oncology with a joint appointment at the Johns Hopkins 
Whiting School of Engineering, Department of Chemical and Biomolecular 
Engineering who has some novel ideas about treating breast cancer. 
Using powerful molecular genetic techniques, his lab is attempting to 
identify genes involved with clinical drug resistance. It has been 
previously demonstrated that loss of tumor-suppressor genes and/or 
their downstream effectors can confer resistance against certain 
chemotherapies. The lab hypothesizes that there are other genes where 
inactivation in a recessive manner can also lead to clinically relevant 
drug resistance. This problem is of extreme importance to clinical 
oncology, as the emergence of drug-resistant cancers is what limits the 
effectiveness of current therapies.
    The lab is also trying to understand pathogenic mechanisms of 
growth/hormone receptor signaling. The continuous exposure of breast 
tissue to estrogens and other growth factors likely plays a role in the 
carcinogenic process that transforms a normal breast epithelial cell 
into a cancer. The lab is trying to elucidate the molecular mechanisms 
of aberrant receptor signaling that contributes to this process.
    Returning to our focus today, the young investigator, I believe it 
is critical to point out that most ideas that turn into Nobel Prizes 
come from investigators before they reach the age of 40. While we can 
not pinpoint today, whose work will ultimately be recognized in this 
way, it exemplifies why support for their work must continue and why we 
must support ``out-of-the-box'' thinkers during the early stages of 
their careers. Who knows, perhaps the work all these scientists are 
conducting--or would hope to conduct if funding were more readily 
available--could be as critical to future breakthroughs in healthcare 
as that of past Nobel and Lasker award winners. It would be a shame to 
never know.
    Instead of thinking about breast cancer research, Park says he is 
spending 90 percent of his time chasing grants. He even has his 
trainees applying for their own grants to make up for the lab's drop in 
NCI dollars. He reports that 9 out of 10 applications do not get funded 
and for those that do, R01 awards are then reduced 29 percent. His 
$218,000 grant is now only $155,000.
    Park says he has not had to let people go from his lab, but ``I 
can't think about science any more. I have to focus on getting grants'' 
from foundations and philanthropists. Even those grant applications 
from his trainees have to be reviewed and rewritten by Park to give 
them the best chance of getting approved. It means time away for all 
from their research into developing novel means for treating breast 
cancer.
    Dr. Park reports that, unfortunately, his story is not unique and 
he worries that if the current funding environment is not reversed 
soon, we are going to lose a lot of very talented people in science. In 
a letter to the editor that appeared in the Baltimore Sun last spring 
Dr. Park and a fellow cancer researcher at the University of Maryland 
wrote:

          The tragedy stems from our inability to continue to do bold 
        new research that can ultimately affect the prevention, 
        diagnosis and treatment of a myriad of diseases such as cancer. 
        Working in academics is a privilege because it affords 
        scientists the ability to strike out on new creative and 
        innovative projects that would not be allowed in most biotech 
        or pharmaceutical companies. . . . Thus, the ultimate 
        repercussion of decreased Federal funding is not loss of 
        academic scientists, but rather the millions of lives that 
        biomedical research could have otherwise saved.

                               CONCLUSION

    Federal support for biomedical research has helped to transform our 
ability to detect disease, treat patients, and deliver healthcare with 
greater effectiveness and affordability. At the same time, the return 
on investment for the American taxpayer has been high, as research has 
fostered discoveries that have led to new patents and products, and to 
the creation of new companies and job opportunities.
    The recent enactment of the America COMPETES Act as well as the NIH 
reauthorization legislation enacted at the end of the last Congress, 
demonstrates that the President and Congress have embraced the notion 
that funding for basic research is essential to strengthening America's 
competitive standing in the world. However, the funding levels 
envisioned in neither bill have been realized--particularly with 
respect to NIH. The reauthorization bill called for appropriations of 
$30.3 billion for fiscal year 2007, NIH only received $29.1 billion. 
For the current fiscal year 2008, $32.8 billion dollars was authorized, 
NIH received only $29.5 billion. For the upcoming fiscal year 2009 the 
bill authorized ``such sums as are necessary.'' The President has 
proposed a freeze at the 2008 level and I understand that the budget 
resolution currently before the Senate calls for an increase to $30 
billion. The fact is: Federal investments in biomedicine and basic 
science across the disciplines have taken the United States to the 
leading edge of innovation. The question we now face is whether as a 
country we are willing to pay the price to remain in the lead.

    The Chairman. Miss Lewis.

    STATEMENT OF DANA LEWIS, STUDENT AND DIABETES ADVOCATE, 
         AMERICAN DIABETES ASSOCIATION, HUNTSVILLE, AL

    Ms. Lewis. Thank you and good morning. My name is Dana 
Lewis and I battle Type I diabetes. Five years ago when I was 
first diagnosed I was sure my doctor would prescribe me 
medicine and I would be all healthy. But, I was wrong.
    I am here today because there is currently no cure for 
diabetes. I walk, talk, sleep and dream for a cure, but it does 
not yet exist. Type I diabetes means that my body does not 
create insulin on its own. I must administer insulin throughout 
the day in order to survive.
    Diabetes is more than just daily injections. It is the need 
for a constant balance of insulin with the carbohydrates I 
ingest, the exercise I get while assessing factors such as 
emotions, stress and illness. I strive for tight control 
because research has established that this is the way to avoid 
the devastating long-term complications of diabetes.
    I have benefited from the incredible value of diabetes 
research technologies. When I was first diagnosed I tested my 
glucose levels 12 to 15 times per day using a meter that is 
bigger and heavier than a blackberry. I also had to self 
administer insulin two to three times everyday.
    Thanks to innovations in research, today I use a continuous 
glucose monitoring system and wear an insulin pump. The monitor 
provides a 24-hour view of my blood sugar instead of 15 still 
photos throughout the day. The pump has eliminated my need to 
administer multiple insulin injections each day. Instead I 
inject insulin directly into the pump every few days. This 
combination is much less evasive to my body and allows me to 
more easily maintain good control.
    All the wonderful technologies only help fight the battle 
to stay healthy while I wait for a cure. When you are a young 
adult like me, it is difficult and frustrating to add diabetes 
and thoughts of future health complications into a busy 
academic and social schedule. Knowing that research for 
diabetes in ongoing provides me with hope. Again, thank you for 
letting me speak with you today.
    [The prepared statement of Ms. Lewis follows:]

                    Prepared Statement of Dana Lewis

    Mr. Chairman and Senators of the committee, good morning. Thank you 
for the opportunity to speak today. My name is Dana Lewis and I am from 
Huntsville, AL. I am a sophomore at the University of Alabama pursuing 
degrees in Public Relations and Political Science, with a minor in 
Computer-Based Honors. I have an interest in working in public health. 
I appreciate you holding this hearing on the importance of research 
funding opportunities. My interest in this field and reason for 
speaking with you today stems from my battle of living with type 1 
diabetes.
    Tired, achy, always hungry, always thirsty--these symptoms, 
combined with losing around 15 pounds, preceded my diagnosis of 
diabetes during my freshman year in high school. Being diagnosed seemed 
like it should be the end of my problem--my doctor should have said the 
magic phrase, ``I think you have diabetes,'' hand me some medicine, and 
I'd be all healthy again. But that isn't what happened. My diagnosis 
was not the end but rather the beginning of a love-hate relationship 
that has played a significant role in my life for the past 5 years, one 
that will remain with me until I die.
    There are 20.8 million Americans living with diabetes, a condition 
in which the pancreas either does not create any insulin, which is type 
1 diabetes, or the body doesn't create enough insulin and/or cells are 
resistant to insulin, which is type 2 diabetes. Insulin is a hormone 
that allows glucose or sugar to move from the blood stream into the 
cells where it is used for energy. Since my pancreas no longer produces 
any insulin, I must administer it throughout the day in order to 
survive. After diagnosis, I quickly learned that diabetes is more than 
just daily injections. While a normal pancreas is able to secrete just 
the right amount of insulin, I have to balance these doses of insulin 
with the number of carbohydrates I ingest. It is not a simple puzzle 
that can be solved by filling in the right formula, nor does diabetes 
pose as a sphinx, requiring a correct answer before letting you cross 
the road to good health. When this balance is off, I suffer from what 
is referred to as high blood sugar (hyperglycemia) or low-blood sugar 
(hypoglycemia).
    It can be difficult to maintain blood glucose level in a safe 
range, yet it is essential. I strive for tight blood glucose control 
because research has established that this is the way to avoid the 
devastating long-term complications of diabetes. In order to manage my 
diabetes I need to carefully monitor my blood glucose levels and make 
adjustments about the amount of insulin I administer, taking into 
account the food I eat, and the exercise I get, while assessing factors 
such as emotions, stress and illness that are affecting my body.
    One wrong step, one miscalculation, and the consequences can be 
life threatening. A severe low blood sugar could cause a seizure, 
unconsciousness, brain damage and even death. While a severe high blood 
sugar is also very dangerous, and could send me into a coma, in the 
long term, it is high blood sugars that lead to the many complications 
of diabetes--including blindness, heart disease, kidney disease, and 
amputation. Therefore, I constantly test my blood sugar. I test first 
thing when I wake up in the morning, between classes, walking across 
campus, before I snack or eat a meal and an hour or so afterwards. I 
test before I get in the car to run errands, every few hours while 
studying and each night before going to bed.
    Experiences with highs and lows influence my every day routine. I 
am forced to remain diligent because diabetes affects my behavior. If I 
receive good news or get excited, adrenaline surges and my blood sugar 
will skyrocket and later plummet. If I read news of a tragedy or stress 
over an upcoming exam, my blood sugar slowly creeps upward. When I 
incorrectly calculate the number of carbohydrates I eat in the dining 
hall, my blood sugar spikes and I get dehydrated, my brain feels fuzzy, 
and my eyesight is very unclear. It affects my performance in the 
classroom because I can't concentrate. If I forget to adjust my pump to 
give me less insulin before walking across campus, my blood sugar may 
drop. When this happens, I start weaving on and off of the sidewalk, I 
stumble, I mumble, and I cannot complete the simplest tasks such as 
opening a door and then walking through.
    If my blood sugar is low or high during an exam, I may not clearly 
articulate my skills and abilities or may perform poorly. It could 
affect my grade in the class, my GPA, and possibly my career. I could 
pass out in the middle of class or worse, never wake up from nights 
sleep. In addition, if my body develops ketones (acids that build up in 
the body due to illness or high blood sugars), people can detect the 
fruity odor on my breath and think poorly of my hygiene or incorrectly 
assume that I have consumed alcohol. These may seem extreme, but are 
all part of the many consequences that those of us with diabetes face 
all of the time.
    My life with diabetes is like this because there is no cure. I 
walk, talk, sleep, and dream for a cure but the truth is, one does not 
yet exist. Insulin is not a cure. In the meantime, I am thankful that 
there have been tremendous improvements in the technologies used to 
care for diabetes in the past 5 years since I have been diagnosed. 
These improvements have been life-altering.
    When I was first diagnosed, I pricked my fingers to measure my 
blood glucose levels 12-15 times a day and self administered insulin 
shots 2-3 times a day, adjusting the amount of insulin as discussed 
above. Additionally, the glucose meter that I used was bigger and 
heavier than a Blackberry. I had to constantly use it to prick the side 
of my finger tips. It was cumbersome and left my fingertips looking 
like I sewed without a thimble. It was also embarrassing to have to 
test in front of people who didn't know I had diabetes because it 
looked like an obscure handheld computer monitor. Today, I have a very 
small glucose meter that weighs less than my cell phone. It fits easily 
into my pocket or an eyeglass case. It also provides quicker test 
results and allows for alternate site testing so that I do not always 
need to use my fingertips.
    I went on an insulin pump 18 months after I was diagnosed. Insulin 
pumps deliver rapid--or short--acting insulin 24-hours a day through a 
catheter placed under the skin. Going on the pump allowed me to 
eliminate individual insulin injections and instead inject insulin 
directly into the pump once every two to three days. Rather than 
administering insulin injections and matching my life to how the 
insulin reacted, the pump has allowed me to more easily match insulin 
around my activities while stabilizing my blood glucose levels within 
my target ranges.
    Last year, I went a step further and began using a continuous 
glucose monitoring system (CGMS), a device that provides continuous 
``real time'' readings of glucose levels. The CGMS allows me to better 
manage my diabetes and decreases the frustration of high and low blood 
sugars. I now have a 24-hour view of my blood sugar activity, instead 
of 15 still photos that don't tell the entire story. This allows me to 
not only better understand the current level of glucose, but also see 
when my levels are rising or falling, and to intervene to prevent it 
from going too high or too low. The nights I sleep wearing my CGMS set, 
I do not have to fear not waking-up, because the system has safeguards 
and alarms that will wake me--even from a dead sleep--if my blood sugar 
plummets or skyrockets during the night. Because of the extensive 
research done in developing this device, we are now one step closer to 
a ``closed loop'' artificial pancreas system, which could someday 
regulate insulin delivery and bring us one step closer to a cure for 
diabetes.
    The technology I rely on would not be available if not for the 
extensive research of dedicated scientists. Research is so important 
for people with diabetes because it provides hope for a cure. It is 
difficult to remain motivated day in and day out to keep control of my 
blood sugar and to keep myself healthy. When you are a young adult, it 
is frustrating to add diabetes and the thoughts of future health 
complications into a busy academic and social schedule. My peers 
without diabetes do not carry syringes, packages of glucose tabs, and 
spare test strips in every purse or backpack they use. They do not 
count every bite of food placed in their mouth and they do not need to 
know exactly how long it will take for different types of food to 
affect their blood sugar. All the wonderful technologies only help 
fight the battle to stay healthy while I wait for a cure. For me, 
knowing that research for diabetes is ongoing is what keeps me 
fighting.
    I am not alone in living with this disease. Many of your wives, 
children, siblings, parents, cousins, friends, coworkers, and peers are 
also affected. We are all fighting diabetes and we need the help and 
support of researchers and Congress to do so. Diabetes will not be 
cured by apathy and sitting back while more people are diagnosed and 
suffering complications of this disease. We need additional funding to 
maintain and increase research to create better technologies and to 
find a cure for diabetes.
    Please help me fight diabetes. Increase funding for diabetes 
research. Help me get a cure ``sooner'' rather than ``later.''
    Again, thank you for the opportunity to speak here today.

    The Chairman. Very good. Thank you very much. You know it's 
never easy to talk about one's own health challenges, but I 
think your comments are enormously valuable to the committee 
and have a way of impressing all of us as a result of your own 
personal kind of experience. We thank you very much.
    Dr. Rankin.

  STATEMENT OF DR. SAMUEL M. RANKIN III, ASSOCIATE EXECUTIVE 
    DIRECTOR, AMERICAN MATHEMATICAL SOCIETY, WASHINGTON, DC

    Mr. Rankin. Thank you for the opportunity to speak to you 
today. In the recent fiscal year 2008 Omnibus Appropriations 
bill, science research was not funded at a level that will 
ensure our ability to compete globally. The United States must 
make adequate yearly investments in science research. These 
investments must be stable in the long-term.
    Dependable increases will allow for planning, 
infrastructure development, feasible expectations, a manageable 
pipeline of graduate and post-doctoral students and the 
creation of positions that can be sustained over time. The 
predictable pattern of funding will facilitate a continuous 
stream of high level research and researchers. We should 
consider a mechanism of funding research that insures year over 
year funding that supports growth and competitiveness of the 
U.S. science enterprise.
    Current modes of budgeting jeopardize jobs and 
opportunities for researchers and students as well as to have a 
tendency to create imbalances in the U.S. science portfolio. We 
need to develop a budget index for agencies like the NIH and 
the NSF. This index should be based on economic, competitive 
and sustainability factors as well as U.S. goals. Without such 
an index we will continue to have up cycles followed by down 
cycles and thereby prohibiting our capacity for innovation.
    For example, when adjusted for inflation both the NIH and 
NSF budgets peaked in fiscal year 2004. Currently the fiscal 
year 2008 budgets for both agencies are less than their 
respective 2003 budgets. This is not good for research.
    It is not good for enticing students to study science, 
engineering and mathematics. It is not good for planning. It is 
not good for U.S. competitiveness. Thank you.
    [The prepared statement of Dr. Rankin follows:]

              Prepared Statement of Samuel M. Rankin, III

    Thank you, Chairman Kennedy and Ranking Member Enzi for the 
invitation to speak to the committee today. I am here to speak about 
the National Science Foundation (NSF), an important Federal agency 
supporting science research and education and about the importance of 
the United States having a sustained investment in science research.
    In the recent fiscal year 2008 Omnibus appropriations bill, science 
research was not funded at a level that will ensure our ability to 
compete globally. The United States must make adequate yearly 
investments in science research, and these investments must be stable 
over the long-term. Dependable increases allow for planning, 
infrastructure development, feasible expectations, a manageable 
pipeline of graduate and post-doctoral students, and the creation of 
positions that can be sustained over time. A predictable pattern of 
funding will facilitate a continuous stream of high level research and 
researchers.
    We should be developing a mechanism that ensures year over year 
funding that supports the continued growth and competitiveness of the 
U.S.-science enterprise instead of the practice of doubling agency 
budgets over some time period. After reaching a goal of doubling an 
agency's budget, the temptation is to consider the ``job'' done and at 
best to level funding the agency for a considerable number of years in 
the future. This mode of funding ignores the expectations of the 
scientific community supported through the agency as well as the loss 
of positions and opportunities for researchers and students. Current 
funding methods have a tendency to create imbalances in the U.S.-
science portfolio.
    As the primary source of Federal support for non-medical basic 
research in colleges and universities, the NSF is the only Federal 
agency whose mission includes comprehensive support for all the 
sciences, mathematics, and engineering. Equally important are 
investments in people who will apply new knowledge and expand the 
frontiers of science, mathematics, and engineering. Through its support 
of research and education programs, the agency plays a vital role in 
training the next generation of scientists, engineers, and 
mathematicians.
    Over the past half century, the NSF has had monumental impact on 
our society. The NSF investment has paid dividends in building the 
infrastructure of the individual scientific disciplines, as well as 
laid the groundwork for innovative interdisciplinary research to meet 
modern day scientific and technical challenges. Many new methods and 
products arise from the NSF investment in research, such as geographic 
information systems, World Wide Web search engines, automatic heart 
defibrillators, product bar codes, computer-aided modeling (CAD/CAM), 
retinal implants, optical fibers, magnetic resonance imaging 
technology, and composite materials used in aircraft. NSF-sponsored 
research has triggered huge advances in understanding our planet's 
natural processes. This has provided a sound scientific framework for 
better decisionmaking about Earth's natural environment. These methods, 
products, and advances in understanding accrue from basic research 
performed over many years, not always pre-determined research efforts 
aimed toward a specific result. Furthermore, the NSF traditionally 
receives high marks for efficiency; less than 4 percent of the agency's 
budget is spent on administration and management.
    Even with all its success in supporting cutting edge research, the 
NSF has not received adequate funding in the last several years. The 
2.5 percent NSF budget increase from 2007 to 2008 has put pressure on 
many NSF programs and NSF projects. A few impacts of the fiscal year 
2008 budget are: 1,000 fewer new research grants and 230 fewer Graduate 
Research Grants will be awarded; several major program solicitations 
and new facilities will be delayed for at least a year, and some 
existing facilities will be reduced; the Faculty Early Career 
Development and Research Experiences for Undergraduate programs will be 
reduced; and start-ups of several planned centers will not occur in 
fiscal year 2008.
    In 2002 the Congress passed and the President signed the NSF 
Authorization Act of 2002 (Public Law 107-368). Among other things this 
act authorized the doubling of the NSF budget in the 5-year span 2002-
07, which would have brought the NSF budget to $9.84 billion in 2007. 
Note that the NSF fiscal year 2008 budget is $6.03 billion. In 2007 the 
America's Competes Act (PL 110-69) was passed into law. This bill 
implicitly implied a doubling of the NSF in 7 years. The first 
installment, $6.6 billion, was authorized for fiscal year 2008 and 
$7.33 billion is authorized for fiscal year 2009 in contrast to the FY 
2009 Budget Request mark of $6.85 billion. It is unlikely that the NSF 
will see $7.33 billion in the next fiscal year.
    Using the 1998 NIH budget as the baseline, the Congress focused on 
doubling the NIH budget by the 2003 appropriation. During this time of 
doubling, the NIH budget grew at an annual rate of 14.63 percent. 
However, from 2003 to 2008 the NIH budget increased only at an annual 
rate of approximately 1.7 percent. This means that over the 10-year 
span from 1998 to 2008, the NIH budget grew at an annual rate of 
approximately 8 percent.
    In retrospect, a better approach would have been to steadily 
increase the NIH budget at around 8 percent a year or some other 
sustainable rate. Ramping up the budget in 5 years raised expectations 
and promoted increases in the pipeline of students and the number of 
post-doctoral and research positions in universities. Once this 
dramatic influx stopped, many of these scientists were put in jeopardy, 
and research labs could not be sustained at previous levels.
    We need to develop an index of growth that makes the funding of 
Federal agencies transparent. This index should be based on economic, 
competitive, and sustainability factors as well as U.S. goals. Without 
such an index, we will continue to have up cycles followed by down 
cycles. This is not good for research; it is not good for enticing 
students to study science, engineering, and mathematics; and it is not 
good for U.S. competitiveness.

    The Chairman. Fine. Thank you very much, Dr. Rankin and all 
of you.
    One of the observations during the build up in the doubling 
of the NIH which was done, as Senator Mikulski said, in a very 
bipartisan way--I can remember Connie Mack--I saw him the other 
day. And I said come on back, Connie, we'll double that budget 
one more time and put you to work with some of our colleagues. 
Which was the real potential for very dramatic, important and 
significant breakthroughs and we've seen them.
    I mean this has been in the extraordinary, mapping the 
human genome, all the imaging aspects here in the medical 
device area. I mean, they have been just dramatic in terms of 
what they mean to people in terms of the treatment. It's 
difficult for me to believe that the American people don't 
understand that.
    It has incredible implications in terms of the health and 
well-being of people in this country and unbelievable 
implications in terms of our ability to lead the world in a 
time of globalization. I mean, just unbelievable. I don't mean 
just the bottom line in terms of economic with new industries. 
With the power of dealing with the problems of malaria and 
other health needs in areas around the world where the United 
States is lacking influence.
    I mean it is profound. We have not been creative, 
imaginative, or thoughtful enough to try and recognize both the 
opportunity from a humanitarian point of view. I think really 
from a political point of view.
    I think if for many of us who realize that this really is 
the period of the life sciences. We're struck by the challenges 
that we're facing now with the challenge with global warming. 
People are concerned about global warming.
    The fact is that the research is out there. went out to the 
NIH just at the end of the year. The Senate had closed down and 
spent several hours out there. The types of research that are 
being done in life sciences have some real interesting 
applications in terms of a lot of the other challenges that 
we're facing, whether it's global warming or not. I mean this 
is not a tunnel kind of vision.
    I'm just wondering how to develop support. How we drive, 
Senator Mikulski and ourselves, try to really awaken the 
American people to understand the incredible opportunity that 
is out there. It's really unique.
    I made speeches 45 years ago about how we needed additional 
research because of possible breakthroughs. Well now we've got 
it. This is it. American life science with all of the other 
kinds of implications it has in these other areas as well, 
that's going to offer incredible opportunities, you know, for 
our country in leading the world in terms of our economy. But 
importantly, we get to be able to influence positive and 
constructive forces around the world that could give us a more 
peaceful and progressive world.
    Now how do we come to that? How do we illustrate some of 
that in ways that you think can be appealing to our colleagues? 
What can you tell us about the opportunities that really are 
out there.
    It ought to be this combination of the progress that's 
happening. It is happening. All of us should look at the 
progress we've made in children's cancers, for example. I mean 
it's been extraordinary.
    I mean, maybe Dr. Faust? Could you take a crack at it?
    Ms. Faust. As I listen to your concerns in this area I 
think about how we, in a sense, are sending mixed messages or 
the public is hearing mixed messages because on the one hand we 
are talking about expanding science for undergraduates. We're 
concerned about science teachers in the elementary schools. 
We're concerned about education in the stem fields as they've 
come to be known: science technology, engineering and medicine.
    We're talking about that on the one hand. Yet when we do 
bring brilliant young researchers into the field, we then 
threaten them with these very difficult career developments. I 
think about how the message needs to be explained.
    That if we are to do the first set of agendas, which means 
increase our scientific literacy and uphold science and make 
all these discoveries possible, that there are certain 
responsibilities that go along with that. That's one thing your 
comments made me think about.
    I think more generally how do we communicate about science 
to the wider public. What are the ways in which we can share 
these discoveries and the potential for them. I felt as a 
historian, looking at what's happening in the biological 
sciences right now as if we're in another scientific revolution 
that this is a time of such unprecedented possibility because 
of the new closeness between basic research and cure and that 
kind of translational possibilities.
    That's the message that we need to spread, I think that 
this is a moment of unusual promise. And get that word out as 
universities and as organizations that deal with knowledge.
    Ms. Rafael-Fortney. Chairman Kennedy.
    The Chairman. Yes.
    Ms. Rafael-Fortney. May I have a chance to address that as 
well?
    The Chairman. Go ahead.
    Ms. Rafael-Fortney. The basic research that we've done to 
try to understand the heart failure, specifically in patients 
with muscular dystrophy, has now had this broad impact that we 
found it in 60 to 80 percent of all patients with heart 
failure. When I talk about heart failure, I'm not talking about 
heart attacks where patients either die or recover very 
quickly. I'm talking about the people who are hospitalized for 
months and years on life support waiting for heart transplants.
    This has an incredible cost to our health care system. If 
we have a novel target that we can--by studying muscular 
dystrophy--potentially address heart failure in most of the 
patients, the 5 million patients in the country currently 
living with heart failure. The 500,000 patients diagnosed with 
it every year.
    These are the types of outcomes that happen from doing 
basic research, studying perhaps a particular disease, but have 
really broad implications, both economically to our health care 
system and for quality of life issues for patients
    The Chairman. Well, you know, I could, and Barbara please 
jump in here at any time. It seems to me eventually we're going 
to get to individualized health care systems. I mean we're 
going to eventually get there. I mean when you find out the 
number of prescription drugs people take that are advised that 
only 30 percent of them do any good at all to anybody. We're 
wasting all kinds of expenditures.
    We're eventually going to be able to find out what you all 
know about this. You're going to be able to have implants that 
are going to be able to monitor the distribution of insulin 
during the course of treatment or could amount to be detectors 
for different kinds of illnesses and be able to perhaps 
distribute the kinds of medicines that are going to be needed.
    I think we're headed and we're going to go there. In that 
kind of respect in the possibilities in terms of cost savings 
are going to be breathtaking.
    Ms. Rafael-Fortney. Amazing.
    The Chairman. If we're looking in the back of our minds in 
terms of trying to get a national health care and da de da de 
da. The opportunities in here in terms of what this can mean in 
broader context, not only in opportunities for breakthroughs, 
but also try to deal with some of the current mundane kinds of 
challenges that we're facing in the health care system are 
profound. I mean, really profound.
    You know we're not, at least, we're not talking about it. 
We're not elevating the discussion to it.
    Ms. Rafael-Fortney. I would like----
    The Chairman. Yes, go ahead.
    Ms. Rafael-Fortney. I would like to make one other point. I 
think that, of course, I've only been a faculty member for 
about 8 years. In my perception, the other thing that's very 
different now than in the past is that clinicians and 
scientists are speaking the same language.
    The Chairman. Yes, that's good.
    Ms. Rafael-Fortney. And working together. I have a 
collaborator and we've put in another grant together where she 
runs the cardiac magnetic resonance imaging lab and she can 
detect changes in the heart of muscular dystrophy patients 2, 
3, or 4 years before echocardiography can detect them. We now 
have the capability to intervene with patient care so much 
earlier to save the quality of life and the cost.
    We're not getting this funding to move this forward when 
together as scientists and physicians we can really do amazing 
things that could never really be done before.
    The Chairman. That's--Dr. Miller?
    Dr. Miller. Just going to say, Senator Kennedy, you're 
certainly correct. Just delay the onset of Alzheimer's for 5 
years you would save a tremendous amount of money. We need that 
kind of research.
    The Chairman. It would empty two-thirds of the nursing home 
beds in Massachusetts. I mean, that's what the implications 
are.
    Dr. Miller. It's just----
    The Chairman. Cost. It's breathtaking.
    Dr. Miller. It's over and over again. You can see various 
disease states, chronic diseases where we could get a real 
handle on it.
    The other question you raise is how you sell it to our 
population. How do you sell it to the world. I think most of us 
would like people to think of the United States as a more 
benevolent country than it is right now.
    The most important thing in a person's life is their 
health. Yet how do we export this information that we have from 
basic laboratories in the clinical practice. How do we take 
that to other parts of the world so that we are helping them 
with their problems.
    Whether it's Sub Sahara and HIV and how you prevent it. 
Whether it's malaria research. Whether it's global infections. 
All of these things come out of basic research laboratories 
that are applied in the United States and then can be applied 
in the rest of the world.
    I think that is a tremendous way to sell what NIH has done 
in the past and what it can do in the future. It will position 
us back as a leader in the world.
    The Chairman. I couldn't agree with you more. Ms. Lewis, 
anything you'd like to add on to these general kinds of 
observations?
    Ms. Lewis. Thank you. I just have to say, from the patient 
perspective in the 5 years I've had diabetes--just from the 
public viewpoint--the public has become much more aware of 
diabetes, from when I would tell people I was diagnosed. I have 
Type I diabetes.
    People would say what is that? Does that mean you can't eat 
any sugar at all? Now, when I tell my peers or my teachers or 
people I meet on the street I have Type I diabetes, they say, 
``Oh, so you use insulin. You know, how is that? Do you do it 
with diet and exercise? ''
    Just from the science at the lab to out in the public 
there's been huge changes. I think it has to do with the amount 
of research that has come out of NIH and other places. I think 
it's important to continue this research. As the research 
continues it will make its way to the public so more people 
become aware of this. It has implications for the public 
understanding more about diseases as well as for people with 
diseases like diabetes.
    The Chairman. I think you're absolutely right. I think 
these associations do a terrific job. You know how the Diabetes 
Association and cancer, lung, heart, in terms of getting 
information out and making the public aware, do an incredible 
job.
    It is interesting as you all know--like China, for example, 
is replicating the NIH. They are replicating in terms of their 
particular institutes. Not our institutes, not what they need, 
but what they see us doing, even though they've got different 
types of health challenges because of the success they got.
    They're in phase in terms of increasing their budget that 
would make your mouth water. They're starting way behind. We 
won't see, for a few years, obviously, the jump.
    They've got a pathway and a pattern that are moving ahead 
on it. As was mentioned here you can't just legislate brilliant 
minds and creative minds. We've got some very important 
advantages. The idea that we can just remain still at anchor is 
completely unrealistic.
    Dr. Rankin, any ideas about how we can energize the public? 
Senator Mikulski and I are fired up and ready to go. We're 
interested in what your own sense is.
    It's priorities. That's what we're voted in for. Certainly 
our priorities are in support of what you've outlined here. 
We've got to convince our colleagues of this.
    Mr. Rankin. Yes, we are, the scientific community, 
appreciates your efforts and Senator Mikulski's efforts on 
behalf of science. I think one of the ongoing challenges is to 
communicate the value of basic research to the general public. 
I don't believe that the general public always understands what 
kinds of efforts it takes to develop some of the technologies 
and the benefits in terms of health care and other things that 
is caused by science or the results of scientific research.
    I also don't think that scientists interact enough with the 
general public in a way that they can actually show them some 
of the benefits. Indicate what kinds of efforts it takes to 
make the discoveries that translate into new results that will 
help us from a health care point of view or even from a 
technological and economic point of view.
    I don't have any quick answers to solve that problem. I 
believe it's an ongoing problem. I believe that all of us that 
value science and especially the scientific community needs to 
take some responsibility in this type of education to the 
general public.
    The Chairman. It starts off first of all in respecting 
science.
    Mr. Rankin. Yes.
    The Chairman. And the truth of science. I mean, we start 
getting down where we don't respect the truth of science and we 
have ideology and overriding that and then we get ourselves in 
a lot of trouble. I mean, that is rather basic.
    Senator Mikulski.
    Senator Mikulski. Yes. Dr. Faust, I'm sorry. Did you want 
to----
    The Chairman. Did you----
    Ms. Faust. I was just going to make a comment, just two 
observations listening to my colleagues here. One is that I 
think we are in a moment when there is a lot of discussion, 
public discussion about health care and health care delivery 
and to make research a part of that very widespread discussion 
now.
    I think it would be a real contribution if we could make 
the conversation not simply about the health care system, but 
about the ways in which scientific research can have a real 
impact on cost, deliveries and attainments of the health care 
system.
    The second observation I would make is that these reports 
are the result of a partnership among universities to try to 
get the message out about the role that universities have 
played in scientific research in alliance with the Federal 
Government. I think universities, through actions like ours 
today and other actions that we can take in partnership have an 
important role to explain what they do in this regard. I think 
it's been either taken for granted or not known by the public. 
We need to explain ourselves much better in these ways.
    The Chairman. Good. Good.
    Ms. Faust. Excuse me for interrupting, Senator.
    Senator Mikulski. First of all I think we all agree. I 
would like to just go though, first to Dr. Rankin.
    Dr. Rankin, I'm so glad you brought up the National Science 
Foundation. Also raised the issue of what happened in last 
year's appropriation. I chair the subcommittee that funds the 
National Science Foundation and have been the ranking member 
for a number of years, and along with Senator Bond advocated 
its doubling.
    Here's what happened, last year in this great euphoria we 
found out we were in charge and off we went to hold our 
hearings, to look and see what was under every rock. Under 
every rock we found another rock and under that we found 
unfunded good ideas and people looking to get their doctoral 
fellows to go to school. Our subcommittee, on the bipartisan 
basis put money into, and really began to implement the America 
Competes Act.
    Then we ran into the President's budget veto. President 
Bush told our subcommittee, you have to cut it by $3 billion. 
Now, our overall funding level is about $50 billion, having 
said that, $3 billion would affect NASA, NOAA, NIST and of 
course the National Science Foundation. We did it.
    Mr. Rankin. Yes, you did.
    Senator Mikulski. We did it. What you can see then is 
exactly what you rightfully say, again the skimpy, spartan, two 
point something or other percent increase. Now this is not 
finger pointing, but there was dead silence from those folks 
who benefit from the NSF community.
    The larger community doesn't understand NSF. They 
understand NIH because it's cures and prevention and so on. We 
didn't hear from the scientific community at all until much 
later and then it was sadness and hand wringing and gee, what 
are you going to do.
    One, I think you have to strike when the veto pen is about 
to strike first. There needs to be an overall advocacy of 
really going to the White House. That's your genius with all 
the e-mails and phone calls. I believe in virtual rallies. I 
believe in virtual protest. I believe in virtual picketing. I 
believe in it all because I believe in grass roots.
    Because we believe in you, it is to my dismay that the 
funding of the National Science Foundation is pretty much what 
we spend every year on our Federal prison budget. Stunning, 
isn't it? Didn't that just kind of hit you? Well it's the same 
way for us on the committee.
    We spend $6 billion on Federal prisons. We won't even talk 
about the war and tax cuts and so on. We need to get a lot of 
the bad guys and some gals off the street, but, and I'm not 
saying it's a trade here that oh, if we spent more on NSF, 
maybe it could make a difference, you see.
    One, we need your advocacy, of course, on research. Am I 
right that the National Science Foundation is the premier 
source of funding for the doctoral fellows in the basic 
sciences?
    Mr. Rankin. Yes, that's true.
    Senator Mikulski. Isn't that right?
    Mr. Rankin. Yes, the graduate fellows.
    Senator Mikulski. Do you want to elaborate on that?
    Mr. Rankin. The graduate fellowships are very important 
fellowship for young researchers. One of the nice things about 
the fellowship is it can be taken to any university. It's not 
connected to any particular school. It's given to the student 
that wins the fellowship.
    Senator Mikulski. How many applicants do you think are 
there at NSF for people who want to get Ph.D.'s in the basic 
sciences? That would be biology, chemistry, and physics.
    Mr. Rankin. I don't have the number on the top of my head.
    Senator Mikulski. Well.
    Mr. Rankin. I do know with this 2008 budget that 230 less 
awards will be made.
    Senator Mikulski. That's in research.
    Mr. Rankin. Yes.
    Senator Mikulski. That's in research. In order to do 
research--so we could increase the research money, but then it 
comes to the people. Actually what we're understanding is that 
there's a steady decline in the number of fellows that could be 
funded.
    Dr. Rafael-Fortney, you told a very compelling story about 
how you got excited in the seventh grade and you wanted to 
change the world, etc. You went off to Cornell and actually one 
of the people you studied under at Cornell was Dr. Kay Davis 
who is from Oxford.
    Ms. Rafael-Fortney. She is at Oxford. I did my postdoctoral 
fellowship at----
    Senator Mikulski. Well she was at Cornell with you. She's 
now at Oxford and she kind of zipped along under that British 
system where her research has been so recognized that Her 
Majesty has made her a Dame and you're foraging for money.
    [Laughter.]
    Ms. Rafael-Fortney. She was my mentor as a post-doc, but 
yes, that's true. I'm foraging----
    Senator Mikulski. I mean isn't that exactly right?
    Ms. Rafael-Fortney. That's true. So she----
    Senator Mikulski. She's a Dame of the Empire and you kind 
of feel like Orphan Annie. Now did you get your doctorate under 
an NSF grant? How did you?
    Ms. Rafael-Fortney. No, under NIH.
    Senator Mikulski. I don't mean to----
    Ms. Rafael-Fortney. I was on a NIH training grant as a 
Ph.D. student for 3 years and then a recipient of other 
fellowships throughout the rest of my graduate training and 
that was at the University of Michigan and you know the best 
human genetics department in the country at Francis Collins at 
NIH was there at the time.
    Senator Mikulski. Did the NIH take you? Well here--let me 
get to the point of my question which is one, this sense of 
discouragement and dismay among our young up and comers. What 
about student debt?
    When you talk about getting a doctorate, whether it's you 
or your peers, about how much debt do you think someone----
    Ms. Rafael-Fortney. So that----
    Senator Mikulski [continuing]. Would incur?
    Ms. Rafael-Fortney. The students who work in our labs, who 
are getting their Ph.D.'s when we're done training them are 
actually the work horses that produce the research. They're the 
people in the labs doing the experiment that we design and 
compose. They're the orchestra conducting the music. They're 
the ones who do the research.
    They actually get paid a very piddly stipend, but enough to 
pay their rent and eat macaroni and cheese for dinner every 
night. But they are----
    Senator Mikulski. They better watch their carbs though, 
right?
    Ms. Rafael-Fortney [continuing]. Funded by our--this is 
what our NIH grants pay for is to be able to pay for the people 
working in the lab doing the experiments in addition to the 
cost of the reagent. Out of the NIH money, we're creating a 
huge number of salaries. When I needed to cut my lab from nine 
people to one and a half people, those are seven and a half 
people out of jobs.
    Senator Mikulski. Coming back though, isn't one of the 
questions and I'll turn now to Dr. Miller and Dr. Faust, that 
essentially that as people move along, whether it's getting a 
medical degree for research or a Ph.D. for research because so 
much of research is also done by Ph.D.'s, that the occurrence 
of student debt, by the time they're 30 is pretty significant?
    Dr. Miller. I'll be glad to answer that.
    Senator Mikulski. Dr. Miller.
    Dr. Miller. In terms of M.D. at our school, the current 
debt would be about $96,000 by the time they finish medical 
school before they even begin a residency or go into a lab 
which many of them do, so many of our M.D., Ph.D.'s and so 
forth can run up much greater debt than that. It does influence 
where their career choice is, especially if it looks like the 
funding is not going to be available for sustained research 
activities they will go to other areas.
    The debt becomes an incredibly important factor in 
direction of where people are going to go.
    Senator Mikulski. So, when you get out of school you're 
waiting to get your first grant. You now know it's 43. But, 
you're 30 years old and you owe a lot of money. You wonder 
where you're both going to earn a living and pay off this debt 
and move on. Other fields in industry, financial institutions 
would be attractive. Is that right?
    Now let me go to another question about that if the 
Chairman is indulgent. You, Dr. Miller, have talked about 
whatever we do it needs to be sustained and predictable. I'm 
going to ask you why you emphasize that.
    Then I'm going to ask another question. This committee, 
this Congress loves something called the Manhattan Projects. 
Whenever something happens, they say ``Oh, let's have a 
Manhattan Project.''
    First of all, the people who worked on the Manhattan 
Project probably couldn't get immigration visas. Second, 
because of their politics, their lifestyle or region or 
something, they couldn't get that. And third, if you thought 
about them here where would their money have come from before 
they were Manhattanized.
    Now but when we talk about--I remember after 9/11 we held 
hearings on vaccines because we were concerned about the 
biological threat. Everybody was willing to throw lots of money 
to it. There was panic. There was fear. There was whatever.
    There is a belief in this country and challenge me if you 
think I'm wrong, Doctor. I invite you to do that, which somehow 
in this time and climate of muzzling science it doesn't occur, 
Senator Kennedy said. We can't do Manhattan Projects because 
there aren't people there. The way you do a Manhattan project, 
is you start with the Bronx and the Brooklyns and the 
neighborhoods, which means you start by training people as they 
move through the pipeline. Then they do steadily, more 
sophisticated work or collaboration within our own country, or 
around the world for jobs that you're doing, Doctor and so on.
    I worry that if there is a crisis there won't be people 
there. We also fight war against disease, like we fought this 
war. We don't think through the consequences. We think we can 
muscle our way through any problem. We don't realize how many 
people it takes, and what the people who are going to do this 
need to be able to do this.
    Anyway, I'll stop. Could you talk about sustainability, 
predictability and if we want to come up with another Manhattan 
Project, whether it's to find the cure for cancer or to save us 
from possible predatory attacks against the United States.
    Dr. Miller. Let me break it into two parts. First, in terms 
of an M.D. training. You've got 4 years of medical school and 
usually 5 years of post-graduate work.
    That will just get you through to a point where you may go 
into a lab. That's just the residency. You may have another 
couple of years of fellowship. You've got somewhere around 10 
or 12 years where people have to be sustained during their 
residency and then into their fellowship and then into their 
early years of research.
    The Ph.D. side is about 6\1/2\ years to get a Ph.D. at our 
institution. Then most of them do post docs for another 2 or 3 
years. We're talking for most of the individuals, 10 years of a 
need for support. After that they've just begun their career. 
This is why the age of the first R01 is age 43, etc, etc.
    People need to have that degree of support for a period of 
time. Then it takes them another 3 or 4 years until they really 
get good data so that they can continue to have a sustained 
program. For an investigator to be kind of ``independent'' 
takes much more than just 1 or 2 years. It takes--as you know, 
you're 8 years into that process.
    That is one of the, I think, the reasons that you have to 
have the ability to sustain this over a period of time. You 
can't just ramp it up. I think you're exactly correct. If we 
don't have those people that have those basic training skills 
when an issue comes before us, as the United States, that we 
need to pull people together and do what you're talking about, 
we can't do it.
    We have to have the fundamental training to be able to do 
research.
    Senator Mikulski. Dr. Rankin.
    Mr. Rankin. Yes. Having a sustainable funding mechanism is 
very important. 1998 was when the doubling for the NIH started. 
It was doubled between 1998 and 2003. The annual growth rate 
for the budget, the NIH budget, during that time was around 
14.63 percent per year.
    If you then look at--I am a mathematician, so I like to do 
these calculations. If you look at the budget then from 2003 to 
2008, the NIH is growing at about 1.7 percent a year. If you 
put the 10 years together, the NIH budget is growing from 1998 
to 2008 is on an annual budget growth rate of 8 percent a year.
    Now you can look back in retrospect--is it better, would it 
be better that the NIH be funded at some consistent rate like 8 
percent a year from all those 10 years rather than what's 
happened where they ramped up and then they're watching the 
deterioration of all that capacity that was built. The 
sustainability aspect of funding is very important.
    Ms. Rafael-Fortney. May I address that as well?
    Senator Mikulski. Certainly.
    Ms. Rafael-Fortney. I'm not trying for my first R01. I was 
against the odds, I guess, by the ages up there. I had my first 
R01 at the age of 32 and my faculty position at the age of 29. 
It's now where I'm trying to renew that grant that we've hit 
this funding crisis.
    In the meantime as people graduated in my lab and post docs 
left, I couldn't hire anyone else because there wasn't enough 
money and I couldn't promise them a salary for an extended 
period of time. I now have to let people go who had 8 years of 
experience. When the grant finally does hit, which hopefully it 
will--I'm an optimist and keeping my fingers crossed--I'll have 
to spend the first year re-training people instead of having 
the trained staff who knew how to do everything, who knew where 
everything was, who knew how to get things done, you know 
within the university and where the different rooms are that 
have the different pieces of equipment. I mean just that re-
investment. It costs money rather than keeping a consistent 
flow of some amount of funding to individual labs.
    Senator Mikulski. Most of all the predictability would 
enable both recruitment and retention.
    Mr. Rankin. Right.
    Ms. Rafael-Fortney. Correct.
    Senator Mikulski. I know our time is running out. Now I 
want to ask iconic caustic questions. Dr. Miller, I'll turn to 
you and then any others.
    First of all should we begin to challenge the way NIH 
decides research? I don't mean for us to micro-manage or 
earmark or whatever. Look what you said here, that they decide 
on the safe stuff.
    Where, and again, this is not my position. I'm putting it 
out for conversation and discussion. Is that a dated thing here 
or should we----
    Dr. Miller. Well.
    Senator Mikulski. In other words, why do they go for the 
safe stuff? Do we need to shake that up?
    Ms. Rafael-Fortney. Sorry, I feel the need to address this 
as well. It's not them, it's us. We're the ones who serve on 
the study section conducting peer review.
    I'm going to a study section next week, as a matter of 
fact, week after to review grants. When you have to pick--I 
have a pile of 10 grants and basically one of those is going to 
get funded. When it comes down to picking 1 out of a pile of 
10, you're splitting hairs over the 2 or 3 that are really 
outstanding research that could move their respective fields 
forward.
    But, it is us. I don't think there's anything broken in the 
peer review system and there's actually recently been----
    Senator Mikulski. I didn't say broken. It just seems 
stuffy.
    Ms. Rafael-Fortney. But it's us and it's not stuffy. It's 
just very hard when you're comparing a grant. I'm going in----
    Senator Mikulski. Maybe. I'm not saying that it is, but it 
sounds like it is.
    Ms. Rafael-Fortney. Well, to give you an example.
    Senator Mikulski. They say, ``Well there's not enough 
money'' and that which they fund is really safe and it's 
linear. And it's glacial.
    Dr. Miller. I think you have a mechanism in place. I 
totally agree with you in terms of the peer review. If there 
are more dollars you wouldn't be micro-managing it at that 
level. I also think the Director's Fund allows for some of the 
pioneering work to be done.
    There is a new mechanism available to kind of identify 
people that are really doing risk taking research and to be 
able to find funding for that. I think there are mechanisms in 
place to do that. With more dollars coming to NIH I think we 
can accomplish both of these things.
    Senator Mikulski. This is my last question. This was 
supposed to be the century of biology. The 19th century and the 
20th was tachometry and physics and we benefited. The 20th 
century, we were all so excited. It was going to be goodbye to 
genocide and war and hello to peace and saving the planet, but 
it was going to be the year of biology, both environmentally, 
personally.
    Here we are, having this conversation in 2008. One of the 
things that happened was new ideas, primarily in mathematics in 
the use of computation, where through computational biology, 
now quantum computational techniques, etc. My question is, do 
you think that we could and also, if we really organize 
methodically and with predictability, that we could change also 
the way research is done which is to accelerate the pace of 
discovery for research because there are new techniques?
    Mathematics has really been stunning in its computation. I 
mean we would not have cracked the human genome without 
computational biology. Whether you did it in a methodical way 
that Francis did at NIH or Solera and Craig Venter did.
    Either way it was a race and it was great. They were using 
new mathematical techniques as well as new biological insights 
and so on. Are we on that verge?
    Dr. Miller. Oh, I think we are. I think everywhere----
    Senator Mikulski. Not only in terms of doing more.
    Dr. Miller. You see, whether it's at Harvard or Hopkins or 
Penn or whatever, looking at where schools of engineering 
working with the schools of medicine working across public 
health, working with mathematics departments. We know that a 
collision of two sciences together are going to make the 
biggest step changes in real discoveries.
    I think you just take a look at what's happening in the 
whole area of imaging, where that area is going, early 
molecular markers of diseases and new ways to find those 
molecular markers. Over and over again you see where you can 
bring one technology or knowledge base from one field and apply 
it to something in medicine. Then you will get the kind of 
changes you're going to see.
    There's no question. I think it's the right way to go. The 
Director's Fund for example, is an example of trying to make 
those bridges happen. The CTSA grant is working with industry 
to make that happen. All of those, I think are the right 
science. We just need the dollars to do it and we need it 
sustained over a period of time.
    Senator Mikulski. Mr. Chairman, I don't have any other 
questions. I would also just like to thank, Ms. Lewis. I'd like 
to thank you, Ms. Lewis for what you stand for which is the 
citizen advocates. You know people do vote, not only in voting 
booths, but all of the great philanthropic work around this 
country and in terms of cures has been done through citizens, 
whether it's the famous Race for the Cure for breast cancer, or 
the walks for cures for juvenile diabetes.
    People do vote with their feet and they're willing to raise 
private dollars. Philanthropy cannot be a substitute for public 
policy for public funding. Those marches need not only to be 
for money, but also that we have the will, as well as the 
wallet.
    I just want to thank you for being you. I want to thank all 
of the people all over this country who every weekend are doing 
things to either raise money for research or to raise 
awareness. It's great to have you here.
    The Chairman. Very good. The committee will stand in 
recess. Thank you all very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Bingaman

    Let me thank the Chairman for holding this important 
hearing on health professions supply. This deserves our serious 
attention.
    In New Mexico, 30 of our 33 counties are federally 
designated as health professions shortage areas or medically 
underserved areas.
    With a low per capita income, and a high uninsured 
population, having a health provider in our towns can mean the 
difference between getting care while problems are manageable, 
or waiting until problems became so serious that they require 
hospitalization or worse.
    In New Mexico, we have worked on creative interdisciplinary 
models of health delivery, such as the Health Commons models 
that provide an enhanced primary care home, including medical, 
behavioral, and oral health, to our most needy populations.
    We train our health professionals in these venues, and they 
end up working in them at two to three times the rate of other 
trainees when they graduate. These programs work. Title VII 
funding supported their success. New Mexicans depend on these 
programs for health care.
    These programs are under severe threat. The President 
proposed eliminating title VII funding, severely cutting title 
VIII funding, and unilaterally changing Medicaid rules through 
CMS that will devastate training programs and will unravel our 
tenuous safety net in New Mexico, and across our Nation.
    We have witnessed the unprecedented growth of our uninsured 
under this Administration with 48 million Americans who are 
medically uninsured and over 100 million who lack oral health 
coverage.
    This would be exactly the wrong time to cut funding, as the 
President has proposed. While I support the President's call to 
expand community health center funding, it is cynical, it is 
illogical, to cut the funding of the title VII programs that 
assure staffing of those centers.
    While 21 percent of the U.S. population live in rural 
areas, only 10 percent of our physicians work in rural areas.
    Our population will grow by 25 million per decade, and 
those over age 65 will double by year 2030. Those over age 65 
have twice the number of doctor visits as younger individuals.
    Our Nation faces physician shortages which will grow to 
over 200,000 by 2020, while nursing shortages may exceed 1 
million. Currently, few dentists accept Medicaid and access is 
impossible for our uninsured.
    Let us focus our legislative attention on our pipeline of 
health professionals and the distribution of these graduates 
into the areas where they are most needed.
    Let us support new interdisciplinary models of service and 
learning, with a balance of urban and community-based 
experience--addressing our Nation's most pressing health needs, 
while admitting health professions students are more reflective 
of our Nation's diversity.
    It is time for us to pass measures, using funding 
mechanisms like GME and IME through Medicare and Medicaid, to 
assure training of health professions to address our current 
and future health workforce and access needs. CMS should not be 
cutting funding of these programs through rule changes that 
will blow up our pipeline supply when shortages are severe, and 
getting worse.
    Americans deserve, and should expect, better health 
professions outcomes and return on our Federal investment. We 
should expand funding to programs that produce the types of 
health professionals most needed, and that succeed in placing 
them in the cities and towns where we most need them.
    It is time for Congress to address these shortages, to 
support the hard-working health professionals both in our 
cities and in our small towns, and to fund programs that 
clearly and conclusively work, including title VII and title 
VIII physician, nurse and dental training, scholarship, 
diversity, and loan repayment programs.

                 Prepared Statement of Senator Clinton

    I look forward to working with my colleagues on the HELP 
Committee to reauthorize the title VII health professions 
program. These programs have a great impact on New York, both 
as a State with multiple health professions schools, and as a 
State that has underserved communities who benefit from these 
programs. Our State has 15 medical schools with over 15,000 
residents in training and 11 accredited nursing schools. Our 
rural and urban communities have critical needs for primary 
care physicians, dentists, nurses and other health 
professionals. Over 50 of New York's 62 counties have Medically 
Underserved Areas (MUA's) and many of those counties have 
multiple MUA designations, in both urban and rural areas. In 
some of our rural regions, there has been a significant decline 
in the number of health professionals filling demand, and at 
this point, we do not have enough primary care providers to 
meet the growing needs.
    In addition to ensuring adequate workforce for both rural 
and urban underserved areas, I believe that the title VII 
programs are an important tool in addressing the growing 
diversity of the U.S. population, which is not yet reflected in 
our health workforce. New York State has a minority population 
of 36 percent, yet enrollment in our medical schools by 
minority students lags far behind at 10 percent. This under-
representation is associated with poor health outcomes in 
minority communities, and I think that by improving the number 
of underrepresented minorities in the health professions, we 
can reduce health disparities. Title VII Health Professions 
Programs address these issues by providing educational 
pipelines that target minority students at all levels of 
education, helping them to gain interest in and pursue careers 
in health care.
    The President's proposed budget for New York health 
professions' programs this year is $13 million, compared to $29 
million only 5 years ago. Yet the shortage of primary care 
providers only continues to grow. If we are to meet the needs 
of underserved communities in New York and the Nation, we must 
increase our support for the title VII programs that are an 
essential component in improving access to care for all 
Americans.
    I believe that the title VII programs should be re-
authorized to a level that will make them effective in 
providing a pipeline to encourage a diverse range of 
participants to enter the health professions, retain a 
commitment, through years of training, and to serve in the 
urban and rural communities where they are most needed.
    We need to assure that training programs are aligned with 
healthcare needs. These programs should be amended to improve 
data collection in order to track health professionals, 
identify shortage areas, and evaluate specific outcomes.
    We need to address the primary care shortage by improving 
linkages between health professions schools to medically 
underserved areas.

    [Whereupon, at 12:29 p.m. the hearing was adjourned.]

                                    



</pre></body></html>
